APPENDIX

1a

327

HANNAH P. v. COATS
Cite as 916 F.3d 327 (4th Cir. 2019)

I write separately to point out that reducing a ‘‘totality-of-the-circumstances’’ inquiry into a ‘‘three-factor test’’ poses substantial risks. It elevates the significance
of enumerated factors, relative to non-enumerated factors. It suggests that the enumerated factors warrant equal significance
in the ultimate weighing, notwithstanding
that some facts may be more important
than others. It also discourages courts
from considering factors that are not enumerated in the test, but may be highly
relevant in a particular case. And it serves
as an invitation to lower courts to simply
tick through the enumerated factors and
determine whether more factors favor
treating an assessment as a tax or a fee.
But ‘‘a score of [2] to [1] decides a baseball
game,’’ Remington Hybrid Seed Co., 495
F.3d 403, 407 (7th Cir. 2007), not a multifactorial balancing test, let alone a totalityof-the-facts-and-circumstances test, like
that used to determine whether an assessment constitutes a tax or fee, cf. Hexom v.
Or. Dep’t of Transp., 177 F.3d 1134, 1137
(9th Cir. 1999) (explaining that cases applying the San Juan Cellular test ‘‘take a
practical and sensible approach. They do
not apply a set of rigid rules or elements
and then reach a mechanical conclusion’’).
In this case, we conclude that the first
two factors have little or no bearing on
our ultimate determination that the assessment at issue constitutes a fee. Additionally, the decisive third factor—which
appears to be coextensive with the purpose of the entire three-factor inquiry—
encompasses numerous considerations that
bear significant weight in the ultimate determination—such as whether the funds
are kept in a segregated fund and whether
the assessment incentivizes decisions that
advance the program’s regulatory objectives—but which are not elevated to separate ‘‘factors’’ in the three-factor framework. Thus, though we characterize our
analytical framework as a ‘‘three factor

test,’’ the analysis adheres moreso to the
governing ‘‘totality-of-the-circumstances’’
inquiry.
In sum, the three ‘‘factors’’ from San
Juan Cellular provide helpful guidance in
analyzing the fundamental question of
whether an assessment serves revenue
raising purposes, and therefore is a tax, or
serves a regulatory purpose, and therefore
is a fee. But the ‘‘heart of the inquiry’’
remains ‘‘the purpose and ultimate use of
the assessment.’’ Collins, 123 F.3d at 797.
The majority opinion engages in a thorough and persuasive analysis of numerous
facts and circumstances bearing on that
question and concludes the assessment is a
fee. Accordingly, I concur.

,
HANNAH P., Plaintiff-Appellant,
v.
Daniel COATS, Director of the Office of
the Director of National Intelligence
McLean, VA, Defendant-Appellee,
and
Mark Ewing, in His Personal Capacity
McLean, VA, Defendant.
No. 17-1943
United States Court of Appeals,
Fourth Circuit.
Argued: October 31, 2018
Decided: February 19, 2019
Background: Former employee of the Office of the Director of National Intelligence, who was diagnosed with depression,
brought action against Director, asserting
claims for disability discrimination and re-

2a

328

916 FEDERAL REPORTER, 3d SERIES

taliation under Rehabilitation Act and interference and retaliation under Family
and Medical Leave Act (FMLA). The United States District Court for the Eastern
District of Virginia, No. 1:16-cv-01030CMH-IDD, Claude M. Hilton, Senior District Judge, 2017 WL 3202726, granted
Director’s motion for summary judgment.
Employee appealed.
Holdings: The Court of Appeals, Thacker,
Circuit Judge, held that:
(1) agency did not fail to provide reasonable accommodation to employee;
(2) Rehabilitation Act’s restrictions for
pre-employment medical examinations
did not apply to employee;
(3) referral of employee to voluntary counseling was job-related and consistent
with business necessity;
(4) supervisors’ allege disclosure of employee’s depression did not violate Rehabilitation Act;
(5) psychologist disclosed only nonmedical
information to employee’s supervisors,
and thus did not trigger Rehabilitation
Act’s confidentiality protections;
(6) proffered reason for failing to hire employee for permanent position was not
pretextual; and
(7) genuine issue of material fact existed
as to whether employee provided notice that she wanted to take FMLA
leave for her depression.
Affirmed in part, vacated in part, and remanded.
Gregory, Chief Judge, filed opinion concurring in part and dissenting in part.

1. Federal Courts O3604(4)
The Court of Appeals reviews a district court’s decision to grant summary
judgment de novo.

2. Federal Courts O3604(4)
In reviewing a decision to grant summary judgment, the Court of Appeals applies the same standard as the district
court. Fed. R. Civ. P. 56(a).
3. Federal Courts O3675
In reviewing a decision to grant summary judgment, the Court of Appeals construes the evidence in the light most favorable to the nonmovant, and it draws all
reasonable inferences in her favor.
4. Civil Rights O1225(1)
To establish a prima facie claim of
failure to accommodate under the Rehabilitation Act, a plaintiff must demonstrate
that (1) she was a qualified person with a
disability; (2) the employer had notice of
the disability; (3) the plaintiff could perform the essential functions of the position
with a reasonable accommodation; and (4)
the employer nonetheless refused to make
the accommodation. Rehabilitation Act of
1973 § 504, 29 U.S.C.A. § 794.
5. Civil Rights O1225(3, 4)
Federal agency did not fail to provide
reasonable accommodation to employee
who suffered from depression, and thus
did not violate Rehabilitation Act; agency
initially lightened employee’s workload and
allowed her to come in later in the day,
after that initial plan did not fix employee’s
attendance issues, agency referred her to
its Employee Assistance Program (EAP),
which was voluntary counseling service,
employee instead requested leave of absence, and agency’s delay in granting that
request was due to employee withdrawing
and then renewing request. Rehabilitation Act of 1973 § 504, 29 U.S.C.A. § 794.
6. Civil Rights O1225(4)
Although employers have a duty under the Rehabilitation Act to engage with
their employees in an interactive process
to identify a reasonable accommodation,

3a

HANNAH P. v. COATS
Cite as 916 F.3d 327 (4th Cir. 2019)

the employer has the ultimate discretion to
choose between effective accommodations.
Rehabilitation Act of 1973 § 504, 29
U.S.C.A. § 794.
7. Civil Rights O1225(4)
The Rehabilitation Act does not require an employer to provide the exact
accommodation that an employee requests.
Rehabilitation Act of 1973 § 504, 29
U.S.C.A. § 794.
8. Civil Rights O1116(1)
Federal employee, who suffered from
depression, was not job applicant at time
federal agency requested that she undergo
voluntary counseling, and thus Rehabilitation Act’s restrictions for pre-employment
medical examinations did not apply to employee; although employee was considering
applying for permanent positions with
agency, she had not yet done so at time
agency referred her to counseling, and
agency referred employee to counseling in
lieu of disciplining her for her attendance
issues in her then-current position. Rehabilitation Act of 1973 § 504, 29 U.S.C.A.
§ 794; Americans with Disabilities Act of
1990 § 102, 42 U.S.C.A. § 12112(d)(2)(A).
9. Civil Rights O1218(4)
Federal agency’s referral of employee,
who suffered from depression, to counseling was not mandatory medical examination that would violate Rehabilitation Act;
counseling was voluntary service, and employee’s counselor did not conduct any
medical examination. Rehabilitation Act
of 1973 § 504, 29 U.S.C.A. § 794; Americans with Disabilities Act of 1990 § 102, 42
U.S.C.A. § 12112(d)(4)(A).
10. Civil Rights O1218(4)
Whether a mental examination was
job-related and consistent with business
necessity, as required by the ADA, is an
objective inquiry. Americans with Disabil-

329

ities Act of 1990 § 102, 42 U.S.C.A.
§ 12112(d)(4)(A).
11. Civil Rights O1218(4)
An employer’s request for a medical
examination is job-related and consistent
with business necessity, as required under
the ADA, when: (1) the employee requests
an accommodation; (2) the employee’s ability to perform the essential functions of
the job is impaired; or (3) the employee
poses a direct threat to himself or others.
Americans with Disabilities Act of 1990
§ 102, 42 U.S.C.A. § 12112(d)(4)(A).
12. Civil Rights O1218(4)
Federal agency’s referral of employee,
who suffered from depression, to voluntary
counseling was job-related and consistent
with business necessity, and thus, even if
counseling could be considered a medical
examination, agency did not violate Rehabilitation Act; agency referred employee to
counseling because of her attendance issues, and attendance was regular function
of employee’s job. Rehabilitation Act of
1973 § 504, 29 U.S.C.A. § 794; Americans
with Disabilities Act of 1990 § 102, 42
U.S.C.A. § 12112(d)(4)(A).
13. Civil Rights O1229
The Rehabilitation Act does not protect medical information shared voluntarily. Rehabilitation Act of 1973 § 504, 29
U.S.C.A.
§ 794;
42
U.S.C.A.
§ 12112(d)(3)(B).
14. Civil Rights O1229
Federal employee voluntarily disclosed her depression to her supervisors,
and thus supervisors’ allege disclosure of
her depression in memo referring her to
counseling did not violate Rehabilitation
Act; employee told at least four of her
supervisors of her depression, and although one of those occasions was in response to an inquiry, that inquiry was nonmedical, as it was about employee’s attend-

4a

330

916 FEDERAL REPORTER, 3d SERIES

ance issues. Rehabilitation Act of 1973
§ 504, 29 U.S.C.A. § 794; 42 U.S.C.A.
§ 12112(d)(3)(B).
15. Civil Rights O1017
To the extent possible, the Court of
Appeals construes the ADA and Rehabilitation Act to impose similar requirements.
Rehabilitation Act of 1973, § 2 et seq., 29
U.S.C.A. § 701 et seq.; Americans with
Disabilities Act of 1990, § 2 et seq., 42
U.S.C.A. § 12101 et seq.
16. Civil Rights O1217
The ADA does not require an employer to simply ignore an employee’s blatant
and persistent misconduct, even where
that behavior is potentially tied to a medical condition. Americans with Disabilities
Act of 1990, § 2 et seq., 42 U.S.C.A.
§ 12101 et seq.
17. Civil Rights O1229
Psychologist with federal agency’s voluntary counseling service, who counseled
employee who suffered from depression,
disclosed only nonmedical information to
employee’s supervisors, and thus did not
trigger Rehabilitation Act’s confidentiality
protections. Rehabilitation Act of 1973
§ 504, 29 U.S.C.A. § 794; 42 U.S.C.A.
§ 12112(d)(3)(B).
18. Civil Rights O1401
Rehabilitation Act claims for discrimination are reviewed under the McDonnell
Douglas burden-shifting framework. Rehabilitation Act of 1973 § 504, 29 U.S.C.A.
§ 794.
19. Civil Rights O1401
Under the McDonnell Douglas framework for disability discrimination claims
under the Rehabilitation Act, the plaintiff
has the initial burden of establishing a
prima facie case of discrimination. Rehabilitation Act of 1973 § 504, 29 U.S.C.A.
§ 794.

20. Civil Rights O1217
To establish a prima facie case of disability discrimination under the Rehabilitation Act, a plaintiff must show that: (1) she
is disabled; (2) she was otherwise qualified
for the position; and (3) she suffered an
adverse employment action solely on the
basis of her disability. Rehabilitation Act
of 1973 § 504, 29 U.S.C.A. § 794.
21. Civil Rights O1540
If an employee establishes a prima
facie case of disability discrimination under
the Rehabilitation Act, the burden shifts to
the employer to provide a legitimate, nondiscriminatory reason for its conduct. Rehabilitation Act of 1973 § 504, 29 U.S.C.A.
§ 794.
22. Civil Rights O1540, 1552
If the employer provides a legitimate
nondiscriminatory reason to rebut a prima
facie case of disability discrimination under
the Rehabilitation Act, the employee bears
the ultimate burden of persuasion and
must show by a preponderance of the evidence that the proffered reason was a
pretext for discrimination. Rehabilitation
Act of 1973 § 504, 29 U.S.C.A. § 794.
23. Civil Rights O1221
Federal agency’s proffered reason for
failing to hire employee, who suffered from
depression, for permanent position, i.e.,
her perpetual issues with attendance and
timeliness, was not pretext for disability
discrimination under Rehabilitation Act;
deciding official had not knowledge that
employee had ongoing disability, as memo
from employee’s supervisor described her
depression as ‘‘under her control,’’ official’s
memo about his decision focused on employee’s attendance issues rather than her
depression, and employee failed to arrive
on time 13 times in 46 days. Rehabilitation Act of 1973 § 504, 29 U.S.C.A. § 794.

5a

HANNAH P. v. COATS
Cite as 916 F.3d 327 (4th Cir. 2019)

24. Civil Rights O1217
In the context of a disability discrimination claim under the Rehabilitation Act,
a continuous attendance issue is a legitimate reason for withholding an employment benefit. Rehabilitation Act of 1973
§ 504, 29 U.S.C.A. § 794.
25. Civil Rights O1218(4)
In the context of a disability discrimination claim under the Rehabilitation Act,
in addition to possessing the skills necessary to perform the job in question, an
employee must be willing and able to demonstrate these skills by coming to work on
a regular basis. Rehabilitation Act of 1973
§ 504, 29 U.S.C.A. § 794.
26. Civil Rights O1217
In a failure to hire case under the
Rehabilitation Act, the relevant inquiry is
the candidate’s performance at the time of
the employment decision or in the immediate future. Rehabilitation Act of 1973
§ 504, 29 U.S.C.A. § 794.
27. Labor and Employment O367(1, 2)
Under the FMLA, an employee has a
right to return to the same or an equivalent position at the conclusion of the leave
period. Family and Medical Leave Act of
1993 § 104, 29 U.S.C.A. § 2614(a)(1).
28. Labor and Employment O355
An employee is mandated to provide
notice to her employer when she requires
FMLA leave. Family and Medical Leave
Act of 1993 § 102, 29 U.S.C.A.
§ 2612(a)(1)(D).
29. Labor and Employment O355
An employee need not specifically invoke the FMLA to benefit from its protections. Family and Medical Leave Act of
1993 § 102, 29 U.S.C.A. § 2612(a)(1)(D).
30. Labor and Employment O355
Proper notice of the intention to take
FMLA leave does not require any magic

331

words. Family and Medical Leave Act of
1993 § 102, 29 U.S.C.A. § 2612(a)(1)(D).
31. Labor and Employment O355
Proper notice of FMLA leave merely
makes the employer aware that the employee needs potentially FMLA-qualifying
leave. Family and Medical Leave Act of
1993 § 102, 29 U.S.C.A. § 2612(a)(1)(D).
32. Labor and Employment O355
Once the employer is on notice of the
employee’s need to take potentially
FMLA-qualifying leave, the responsibility
falls on the employer to inquire further
about whether the employee is seeking
FMLA leave. Family and Medical Leave
Act of 1993 § 102, 29 U.S.C.A.
§ 2612(a)(1)(D).
33. Federal Civil Procedure O2497.1
Genuine issue of material fact existed
as to whether federal employee provided
notice to federal agency that she wanted to
take FMLA leave for her depression, precluding summary judgment on employee’s
FMLA interference claim. Family and
Medical Leave Act of 1993 § 102, 29
U.S.C.A. § 2612(a)(1)(D).
34. Labor and Employment O363
The FMLA provides no relief on an
interference claim unless the employee has
been prejudiced by the violation. Family
and Medical Leave Act of 1993 § 102, 29
U.S.C.A. § 2612(a)(1)(D).
35. Labor and Employment O372
Prejudice, as required for an FMLA
interference claim, may be gleaned from
evidence that had the plaintiff received the
required, but omitted, information regarding his FMLA rights, he would have structured his leave differently. Family and
Medical Leave Act of 1993 § 102, 29
U.S.C.A. § 2612(a)(1)(D).

6a

332

916 FEDERAL REPORTER, 3d SERIES

36. Federal Civil Procedure O2497.1
Genuine issue of material fact existed
as to whether federal employee was prejudiced by federal agency’s failure to inform
her about availability of FMLA leave for
her depression, precluding summary judgment on employee’s FMLA interference
claim. Family and Medical Leave Act of
1993 § 102, 29 U.S.C.A. § 2612(a)(1)(D).
37. Labor and Employment O389(2)
Courts analyze FMLA retaliation
claims under the McDonnell Douglas burden-shifting framework. Family and Medical Leave Act of 1993 § 105, 29 U.S.C.A.
§ 2615(a)(2).
38. Labor and Employment O365
To establish a prima facie case of
FMLA retaliation, a plaintiff must demonstrate that: (1) she engaged in a protected
activity; (2) her employer took an adverse
employment action against her; and (3)
there was a causal link between the two
events. Family and Medical Leave Act of
1993 § 105, 29 U.S.C.A. § 2615(a)(2).
39. Labor and Employment O389(2)
If the plaintiff establishes a prima facie case of FMLA retaliation, the burden
shifts to the defendant to provide a legitimate, nonretaliatory reason for taking the
employment action at issue. Family and
Medical Leave Act of 1993 § 105, 29
U.S.C.A. § 2615(a)(2).
40. Labor and Employment O389(2)
If the employer rebuts a plaintiff’s
prima facie case of FMLA retaliation by
proffering a legitimate nondiscriminatory
reason for the action, the burden shifts
back to the plaintiff to demonstrate that
the employer’s proffered reason is pretextual. Family and Medical Leave Act of
1993 § 105, 29 U.S.C.A. § 2615(a)(2).
1.

Pursuant to a protective order, Hannah is

Appeal from the United States District
Court for the Eastern District of Virginia,
at Alexandria. Claude M. Hilton, Senior
District Judge. (1:16-cv-01030-CMH-IDD)
ARGUED: Timothy Bosson, BOSSON
LEGAL GROUP, Fairfax, Virginia, for
Appellant. Caroline D. Lopez, UNITED
STATES DEPARTMENT OF JUSTICE,
Washington, D.C., for Appellee. ON
BRIEF: Chad A. Readler, Principal Deputy Assistant Attorney General, Marleigh
D. Dover, Civil Division, UNITED
STATES DEPARTMENT OF JUSTICE,
Washington, D.C.; Dana J. Boente, United
States Attorney, OFFICE OF THE
UNITED STATES ATTORNEY, Alexandria, Virginia, for Appellee.
Before GREGORY, Chief Judge,
THACKER and QUATTLEBAUM,
Circuit Judges.
Affirmed in part, vacated in part, and
remanded by published opinion. Judge
Thacker wrote the opinion, in which Judge
Quattlebaum joined. Chief Judge Gregory
wrote a separate opinion concurring in
part and dissenting in part.
THACKER, Circuit Judge:
Appellant Hannah P.1 (‘‘Hannah’’), a former employee of the Office of the Director
of National Intelligence (‘‘Appellee’’), asserts that Appellee discriminated against
her pursuant to the Rehabilitation Act of
1973 (‘‘Rehabilitation Act’’), 29 U.S.C.
§ 701, et seq., and violated the Family and
Medical Leave Act of 1993 (‘‘FMLA’’), 29
U.S.C. § 2601, et seq., by not hiring her for
a permanent position. The district court
granted summary judgment in Appellee’s
favor as to all claims.
For the reasons explained below, we
affirm the district court’s judgment as to
identified by her first name and last initial.

7a

HANNAH P. v. COATS
Cite as 916 F.3d 327 (4th Cir. 2019)

the Rehabilitation Act and FMLA retaliation claims. However, because a genuine
issue of material fact remains as to whether Hannah provided notice of her disability
and interest in FMLA leave sufficient to
trigger Appellee’s duty to inquire, we hold
that summary judgment as to Hannah’s
FMLA interference claim was not warranted. Accordingly, we vacate that part of
the district court’s judgment and remand
Hannah’s FMLA interference claim for
further proceedings.
I.
A.
In March 2011, Appellee hired Hannah
for a five-year term as an operations analyst. In that position, Hannah participated
in ‘‘long-term, in-depth studies into issues
that had particular budgetary importance
for the [c]ommunity.’’ J.A. 18.2 Hannah
generally received glowing reviews from
her supervisors. See, e.g., id. at 412 (describing Hannah’s performance prior to
2015 as ‘‘outstanding’’ and noting her ‘‘energy/drive, technical competence, superb
communication and networking skills, and
superior analytic tradecraft’’); id. at 350
(describing Hannah as ‘‘a high-performing
employee’’); id. at 391–410 (describing, repeatedly, various elements of Hannah’s
performance as ‘‘excellent’’ and ‘‘outstanding’’).
B.
A few months after she was hired, Hannah was diagnosed with depression. Hannah immediately informed at least two of
2.

Citations to the ‘‘J.A.’’ refer to the Joint
Appendix filed by the parties in this appeal.

3.

In 2013, National Security Agency subcontractor Edward Snowden leaked ‘‘the biggest
cache of top-secret documents in history,’’
which revealed numerous global surveillance
programs run by the United States govern-

333

her supervisors of her diagnosis, but she
did not request any accommodations at
that time. Hannah treated her depression
by seeing a counselor and a psychiatrist
and by taking prescribed medication.
In November 2013, Hannah was assigned to coordinate the responses of the
National Intelligence Director and Principal Deputy Director to Edward Snowden’s
unauthorized disclosures.3 This role was
‘‘high stress’’ and required ‘‘frequent long
hours and weekend work coupled with
meeting tight deadlines and dealing with a
demanding [National Security Council]
customer.’’ J.A. 412. In fact, to accommodate the schedule change that this role
required, Appellee moved Hannah to a
‘‘maxi flex’’ schedule. Id. at 350–51. A
‘‘maxi flex’’ schedule requires an analyst to
work a certain number of hours -- 80 hours
over a two-week period -- but does not
dictate the exact hours that the analyst
must work per day. For Hannah, that
meant starting and ending work later than
traditional business hours.
The Snowden assignment lasted 18
months and completed in January 2015.
However, Hannah continued her atypical
working hours beyond the completion of
the Snowden assignment. Hannah’s supervisor ‘‘was expecting’’ that when the Snowden assignment ended, Hannah’s hours
‘‘might become more normal.’’ J.A. 353.
However, for the first few months, he did
not communicate with Hannah about returning to normal business hours. Rather,
he explained, he was ‘‘primarily concerned
about establishing what [Hannah’s] next
task was going to be.’’ Id.
ment. Ewen MacAskill & Alex Hern, Edward
Snowden: ‘The People Are Still Powerless, but
Now They’re Aware, ’ Guardian (June 4, 2018),
https://www.theguardian.com/us-news/2018/
jun/04/edward-snowden-people-stillpowerless-but-aware.

8a

334

916 FEDERAL REPORTER, 3d SERIES

By March 2015, Hannah’s co-workers
perceived her schedule to be ‘‘erratic.’’ J.A.
413. Hannah arrived to work well after
normal business hours and racked up numerous unplanned absences. On some occasions Hannah was ‘‘extremely late,’’
sometimes arriving after 2 PM. Id. On
other occasions Hannah was unreachable
for hours, often missing and failing to return ‘‘repeated phone calls to her cell and
home phone.’’ Id. When Hannah’s supervisors were able to reach her, they noted
that she seemed ‘‘either lethargic or almost unconcerned’’ about her lateness and
absences. Id. They also noted that her
demeanor was ‘‘sad, very flat, and almost
trance like.’’ Id. Around that time, Hannah
informed her supervisors that she ‘‘had a
recent change in medication.’’ Id.
C.
1.
Appellee made some accommodations
for Hannah following the Snowden assignment. First, after consulting with Hannah
in January 2015, Appellee lightened Hannah’s workload ‘‘to give her a chance to
decompress’’ from the stress of the Snowden assignment. J.A. 413 (internal quotation marks omitted). Second, multiple of
Hannah’s supervisors had ‘‘informal counseling sessions’’ with her ‘‘to discuss any
issues that she might be having’’ and to
‘‘urge her’’ to notify them if she was going
to be late or absent. Id.
On March 19, 2015, one of Hannah’s
supervisors met with Hannah directly to
address her attendance issues. Together,
Hannah and her supervisors developed a
plan to reconcile Hannah’s depression with
Appellee’s staffing needs. According to
that plan, Hannah was to arrive to work by
10 AM. If she was going to be absent or
later than 10 AM, Hannah was to contact
one of her supervisors in advance. If Han-

nah had not arrived at work or contacted a
supervisor by 11 AM, a supervisor would
call her to determine when she would arrive.
But, Hannah did not follow the plan. For
example, the very next day after she and
her supervisors developed the plan, Hannah emailed her supervisors at 11:05 AM
to inform them that she would be arriving
after 12 PM. Similarly, on March 31, Hannah emailed her supervisors at 11:56 AM
to inform them that she would not be
coming into work at all that day. On April
1, after Hannah had not arrived to work or
contacted her supervisors, Hannah’s second-level supervisor called her at 12:30
PM, at which time Hannah reported ‘‘being unable to just get going.’’ J.A. 413.
Later that day, when Hannah finally arrived to work, her supervisor informed her
that the plan they created was not working.
At that same time, her supervisor revised the plan to require Hannah to arrive
at work by 10 AM or report to her supervisors in advance if she was going to be
late or absent. This ‘‘put the onus’’ on
Hannah to contact her supervisors, rather
than asking her supervisors to contact her
if she had not arrived at work by 11 AM.
J.A. 90. Hannah failed to follow this modified plan as well. In fact, she failed to
comply on April 2 and April 3, the two
days following the meeting where the plan
was modified.
According to Appellee, Hannah’s timeliness and attendance issues impacted her
performance, the performance of her
peers, and the performance of her supervisors. Per Appellee, Hannah’s ‘‘erratic’’
schedule was ‘‘noted by her teammates’’
and affected ‘‘unit cohesion.’’ J.A. 413.
Hannah’s failure to report her tardiness
and absences as well as her unresponsiveness required her management team to
spend ‘‘significant time and energy’’ track-

9a

335

HANNAH P. v. COATS
Cite as 916 F.3d 327 (4th Cir. 2019)

ing her down. Id. Additionally, because of
Hannah’s absences, Hannah’s supervisors
were often forced to assign work that
might have been assigned to Hannah to
other analysts.

told her supervisor that Hannah was concerned about Appellee’s records retention
policies, and that Hannah’s ‘‘difficulties in
getting to work were the result of a lack of
motivation, not related to depression.’’ J.A.
540.

2.
On April 9, 2015, just three weeks after
the initial work plan was developed to
attempt to accommodate Hannah’s needs,
Hannah again met with her supervisors.
At this meeting, Hannah’s supervisors informed her that they were referring her to
the
Employee
Assistance
Program
(‘‘EAP’’). EAP is a voluntary counseling
service for employees and their family
members that provides ‘‘free, confidential,
short-term mental health[,] financial, and
addictions counseling and referral to
cleared community providers.’’ J.A. 132.
Hannah’s supervisors made an EAP appointment for her for the following day,
Friday, April 10. At that time, Hannah
explained to her supervisors that her psychiatrist recommended she take four
weeks of medical leave. But, Hannah’s supervisors insisted that she would need to
meet with EAP before they could approve
her request for medical leave.
On the next business day following Hannah’s EAP session -- Monday, April 13 -Hannah’s supervisor told Hannah he was
willing to authorize her to take medical
leave. However, at that point, Hannah informed her supervisor that her leave request was ‘‘on hold,’’ without further explanation. J.A. 170, 178.
On April 16, Hannah’s supervisor noted
in an email that he had an ‘‘extended’’ 40minute discussion with Hannah’s EAP psychologist. J.A. 604. Hannah alleges that
the EAP psychologist ‘‘shared with [Hannah’s supervisor] details of what Hannah
had revealed in confidence at the EAP
sessions.’’ Appellant’s Br. 17. Specifically,
Hannah alleges that the EAP psychologist

3.
Despite Hannah’s participation in EAP,
her attendance problems persisted. For
example, on April 13, 2015, Hannah
emailed her supervisors at 10:58 AM to
inform them that she would arrive to work
by 11:30 AM. Similarly, on April 14, Hannah emailed her supervisors at 11:08 AM
to inform them that she would arrive to
work by 12 PM. That day, Hannah’s supervisors were not able to confirm her arrival
to work until after 1:50 PM.
A week after advising her supervisors
that her leave request was ‘‘on hold,’’ on
April 21, Hannah renewed her request for
four weeks of medical leave. Hannah’s supervisors approved that request on May 5.
They required her to use her annual leave
to account for four-fifths of the four week
leave period, and allowed her one day of
sick leave per week to make up the rest.
Hannah began her leave the day it was
approved.
On May 4, the day before Hannah began
her leave of absence, Hannah’s supervisors
gave her a letter of expectations. That
letter confirmed the revised attendance
and reporting plan. This plan required
Hannah to arrive to work by 10 AM or
report to her supervisors by 9:30 AM if
she was going to be late or absent.
4.
During this time, Hannah applied for
three permanent positions within the Office of the Director of National Intelligence. In February 2015, Hannah interviewed for two permanent positions for

10a

336

916 FEDERAL REPORTER, 3d SERIES

which she was not selected. Shortly before
taking her leave of absence in May 2015,
Hannah applied for a third full-time position, the Program Mission Manager Cyber
Position (‘‘Cyber position’’). She was interviewed for the Cyber position on June 9,
eight days after she returned from leave,
and the interview panel recommended her
for the position. Her application was then
forwarded to Appellee’s Chief Management Officer, Mark Ewing, who recommended that Hannah not be selected for
the position ‘‘at this time,’’ stating that
Hannah’s ‘‘recent performance is not consistent with a potentially good employee.’’
J.A. 232. Hannah was informed that her
application had been rejected in early July
2015, and she did not apply for any other
positions. Hannah completed her five-year
term with Appellee in March 2016.
D.
Hannah exhausted her administrative
remedies and filed this lawsuit on August
12, 2016. She alleged that Appellee violated the Rehabilitation Act in five ways: (1)
failing to accommodate her mental illness;
(2) creating a hostile work environment;
(3) requiring her to undergo a medical
examination; (4) disclosing her confidential
medical information; and (5) refusing to
hire her for the Cyber position. Additionally, Hannah alleged that Appellee violated
the FMLA in two ways: (1) by interfering
with her ability to take medical leave; and
(2) by retaliating against her when she
took medical leave. After the close of discovery, Appellee moved for summary judgment on all counts. The district court
granted that motion on July 27, 2017. Hannah filed this timely notice of appeal challenging the district court’s decisions on all
but the hostile work environment claim.
II.
[1–3] We review a district court’s decision to grant summary judgment de novo.

See Vannoy v. Fed. Reserve Bank of Richmond, 827 F.3d 296, 300 (4th Cir. 2016). In
doing so, this court applies the same standard as the district court. See id. That
standard requires the court to grant summary judgment where ‘‘there is no genuine
dispute as to any material fact and the
movant is entitled to judgment as a matter
of law.’’ Fed. R. Civ. P. 56(a); see also
Vannoy, 827 F.3d at 300. We construe the
evidence in the light most favorable to
Hannah, the nonmovant, and we draw all
reasonable inferences in her favor. See
Vannoy, 827 F.3d at 300.
III.
Hannah asserts that Appellee violated
the Rehabilitation Act by failing to accommodate her depression, wrongfully requiring her to undergo a medical examination,
unlawfully disclosing her confidential medical information, and refusing to hire her
for the Cyber position. Additionally, Hannah asserts that Appellee interfered with
and retaliated against her for using leave
under the FMLA. We will address each of
these claims in turn.
A.
Rehabilitation Act Claims
The Rehabilitation Act prohibits federal
agencies from discriminating against its
employees on the basis of disability. See 29
U.S.C. § 794. For the reasons explained
below, Hannah failed to satisfy her burden
on each of her claims under the Rehabilitation Act. Specifically, Hannah failed to: (1)
demonstrate that Appellee failed to accommodate her depression; (2) demonstrate
that Appellee’s EAP amounted to a required medical examination; (3) demonstrate that Appellee disclosed or misused
confidential medical information; and (4)
rebut Appellee’s legitimate, nondiscrimina-

11a

HANNAH P. v. COATS
Cite as 916 F.3d 327 (4th Cir. 2019)

tory reason for rejecting her application
for a permanent position.
1.
Reasonable Accommodation
Turning first to Hannah’s claim that Appellee failed to accommodate her depression, the district court correctly concluded
that Hannah did not establish a prima
facie case because Hannah failed to demonstrate that Appellee refused to make a
reasonable accommodation.
[4] To establish a prima facie claim of
failure to accommodate under the Rehabilitation Act, a plaintiff must demonstrate
that (1) she was a qualified person with a
disability; (2) the employer had notice of
the disability; (3) the plaintiff could perform the essential functions of the position
with a reasonable accommodation; and (4)
the employer nonetheless refused to make
the accommodation. See Reyazuddin v.
Montgomery Cty., 789 F.3d 407, 414 (4th
Cir. 2015). The district court concluded
that Hannah could not establish the fourth
element -- specifically, the district court
determined that Appellee provided Hannah with at least two reasonable accommodations. And, on appeal, the parties dispute only the fourth element.
[5] Here, as detailed above, Appellee
provided Hannah with a reasonable accommodation. When Hannah failed to follow
that plan, Hannah’s supervisors attempted
a new accommodation -- referring Hannah
to EAP. Yet, despite Hannah’s participation in EAP, her attendance problems
persisted.
[6] Hannah argues that Appellee’s accommodations were not reasonable for two
reasons. First, she claims that the accommodation was improperly rescinded when
her supervisors concluded that the first
plan was not working. Hannah asserts that

337

the Rehabilitation Act requires a collaborative process. Hannah argues that rather
than collaborating with her to identify a
workable accommodation, Appellee unilaterally decided that the first plan was not
working, then unilaterally decided that
Hannah should participate in EAP counseling instead. Although employers have a
duty to engage with their employees in an
‘‘interactive process to identify a reasonable accommodation,’’ Wilson v. Dollar
Gen. Corp., 717 F.3d 337, 346 (4th Cir.
2013), the employer ‘‘has the ultimate discretion to choose between effective accommodations.’’ Reyazuddin, 789 F.3d at 415–
16 (citing Hankins v. Gap, Inc., 84 F.3d
797, 800 (6th Cir. 1996)). Nonetheless, even
under Hannah’s view of the record, Appellee did, in fact, collaborate with Hannah in
establishing the first accommodation and
only acted unilaterally when that accommodation did not work.
Second, Hannah claims that a reasonable accommodation that she requested -a leave of absence -- was improperly delayed. Hannah posits that she ‘‘suffered
immense emotional stress during this one
month lapse of [Appellee’s] compliance
with the law.’’ Appellant’s Br. 37. This
argument is without merit and is not supported by the record, even when viewed in
the light most favorable to Hannah. Hannah first requested the leave of absence on
April 9, 2015. Then, on April 13 -- just two
business days later -- Hannah withdrew
her request without explanation, telling
her supervisor that her leave request was
‘‘on hold.’’ J.A. 170, 178. Hannah then renewed her request for leave on April 21,
and her request was approved on May 5.
Thus, there was no ‘‘one month lapse,’’
since Hannah’s request was ‘‘on hold’’ for
nine days of that time.
[7] During the remaining gap between
Hannah’s request for leave and Appellee’s
approval of that request, Appellee referred

12a

338

916 FEDERAL REPORTER, 3d SERIES

Hannah to its counseling service. The Rehabilitation Act does not require an employer to provide the exact accommodation
that an employee requests. See Reyazuddin, 789 F.3d at 415 (‘‘An employer may
reasonably accommodate an employee
without providing the exact accommodation that the employee requested.’’). Further, the record demonstrates that Hannah’s supervisors were actively considering
her request for leave during that time, and
they did ultimately approve it less than a
month after she first requested leave.

for her attendance issues in her then-current position, rather than as a pre-employment medical examination. Moreover, the
fact that Hannah’s attendance issues may
have been related to her stress and frustration surrounding obtaining permanent
employment with Appellee does not transform her EAP referral into a pre-employment medical examination.

For these reasons, granting summary
judgment to Appellee on Hannah’s reasonable accommodation claim was proper.

[9] Further, Hannah failed to demonstrate, much less create a genuine issue of
material fact, that EAP constituted a prohibited medical examination of a current
employee. We note that EAP’s policies
make clear that EAP is intended to be
used as a voluntary counseling service, and
not as a mandatory medical examination
that would violate the Rehabilitation Act.
See J.A. 130 (‘‘[U]tilizing EAP is always
voluntary and therefore the employee has
the right to decline to attend treatment,
even if management-referred.’’). Additionally, Hannah’s EAP counselor repeatedly
stated that she did not conduct a medical
examination:

2.
Required Medical Examination
Under the Rehabilitation Act, an employer ‘‘shall not require a medical examination and shall not make inquiries of an
employee as to whether such employee is
an individual with a disability or as to the
nature or severity of the disability, unless
such examination or inquiry is shown to be
job-related and consistent with business
necessity.’’ 42 U.S.C. § 12112(d)(4)(A).
a.
Examination of a Job Applicant
[8] As an initial matter, Hannah’s arguments related to pre-employment medical examinations under the Rehabilitation
Act 4 miss the mark because Hannah was a
current employee, not a job applicant. Although Appellee knew Hannah was considering applying for permanent positions
with Appellee at the time she was referred
to EAP, she had not yet done so. The
evidence is clear that Appellee referred
Hannah to EAP in lieu of disciplining her
4.

Subject to certain exceptions, an employer
‘‘shall not conduct a medical examination or
make inquiries of a job applicant as to wheth-

b.
Examination of a Current Employee

I did not conduct a medical examination
of [Hannah], and I did not conduct a
mental health evaluation or diagnostic
assessment because a) [Hannah] informed me she was already in treatment
and b) TTT it is not in EAP’s purview to
conduct a medical evaluation. I did not
administer any medical or mental health
tests or diagnostic assessment tools for
the same reason. I was [n]ot tasked to
diagnose or provide a second opinion;
my role was to facilitate communication
between [Hannah] and Management to
resolve the problem presented in the
er such applicant is an individual with a disability or as to the nature or severity of such
disability.’’ 42 U.S.C. § 12112(d)(2)(A).

13a

339

HANNAH P. v. COATS
Cite as 916 F.3d 327 (4th Cir. 2019)

Management Referral -- namely, improving attendance and notifying management when not attending work.
Id. at 188 (emphasis omitted).
[10, 11] However, even if EAP constituted a mandatory medical examination
under the facts of this case, summary
judgment to Appellee was still appropriate
on this claim because Hannah’s referral to
EAP was ‘‘job-related and consistent with
business
necessity.’’
42
U.S.C.
§ 12112(d)(4)(A). As we have stated,
‘‘whether a mental examination was ‘jobrelated and consistent with business necessity’ is an objective inquiry.’’ Pence v. Tenneco Auto. Operating Co., 169 F. App’x
808, 812 (4th Cir. 2006). ‘‘We therefore do
not resolve any dispute about what [Appellee’s] subjective motivations were for having [Hannah] examined by the EAP.’’ Id.
An employer’s request for a medical examination is job-related and consistent with
business necessity when: ‘‘(1) the employee
requests an accommodation; (2) the employee’s ability to perform the essential
functions of the job is impaired; or (3) the
employee poses a direct threat to himself
or others.’’ Kroll v. White Lake Ambulance Auth., 763 F.3d 619, 623 (6th Cir.
2014).
[12] Here, the evidence, even when
viewed in the light most favorable to Hannah, supports granting summary judgment
because Appellee had a reasonable belief
that Hannah’s ability to perform the essential functions of her job was impaired by
her repeated issues with attendance and
timely reporting. Hannah attempts to refute this by asserting that her job performance was excellent, but job performance alone does not create a genuine issue
of material fact. Attendance was also an
essential function of Hannah’s job, one the
record amply demonstrates she was unable
to fulfill when Appellee referred her to
EAP. As we have stated:

In addition to possessing the skills necessary to perform the job in question, an
employee must be willing and able to
demonstrate these skills by coming to
work on a regular basis. Except in the
unusual case where an employee can
effectively perform all work-related
duties at home, an employee ‘‘who does
not come to work cannot perform any of
his job functions, essential or otherwise.’’
Therefore, a regular and reliable level of
attendance is a necessary element of
most jobs.
Tyndall v. Nat’l Educ. Ctrs., Inc. of Cal.,
31 F.3d 209, 213 (4th Cir. 1994) (quoting
Wimbley v. Bolger, 642 F.Supp. 481, 485
(W.D. Tenn. 1986), aff’d, 831 F.2d 298 (6th
Cir. 1987)) (emphasis in original); see also
Denman v. Davey Tree Expert Co., 266 F.
App’x 377, 380 (6th Cir. 2007) (‘‘Job performance is separate from the ability to
show up for work, an essential function of
[Hannah’s] position.’’).
Accordingly, Appellee did not violate the
Rehabilitation Act by referring Hannah to
EAP, and the district court properly
granted summary judgment to Appellee on
this claim.
3.
Confidential Medical Information
Under the Rehabilitation Act, an employer may ‘‘conduct voluntary medical examinations, including voluntary medical
histories, which are part of an employee
health program’’ and may ‘‘make inquiries
into the ability of an employee to perform
job-related
functions.’’
42
U.S.C.
§ 12112(d)(4)(B). Any ‘‘information obtained regarding the medical condition or
history of the applicant’’ -- that is, medical
information -- must be ‘‘collected and
maintained on separate forms and in separate medical files and [must be] treated as
a confidential medical record.’’ Id.

14a

340

916 FEDERAL REPORTER, 3d SERIES

see

§ 12112(d)(3)(B);
§ 12112(d)(4)(C).

also

id.

Hannah alleges two separate Rehabilitation Act violations regarding her medical
information: first, that Hannah’s supervisors wrongfully sought and disclosed confidential medical information elicited from
Hannah, and second, that the EAP psychologist wrongfully disclosed confidential
medical information gathered from the
EAP session to Hannah’s supervisors. In
both instances, the district court correctly
determined that Hannah failed to demonstrate that Appellee violated the Rehabilitation Act.
a.
Disclosures by Supervisors
[13] Hannah asserts that her supervisors disclosed her confidential medical information by writing in her EAP referral
memo, ‘‘[e]arly in her tenure TTT and reaffirmed recently, [Hannah] informed us
that she was meeting with a psychiatrist
and counselor and taking medication for
depression.’’ J.A. 413. Notably, Hannah
voluntarily disclosed her depression diagnosis to her supervisors. The Rehabilitation Act does not protect information
shared voluntarily. See Reynolds v. Am.
Nat’l Red Cross, 701 F.3d 143, 155 (4th
Cir. 2012) (finding the district court properly granted summary judgment on a confidentiality claim brought under the Rehabilitation Act because the record ‘‘clearly
show[ed]’’ that the appellant ‘‘disclosed his
medical condition voluntarily’’). Indeed,
Hannah voluntarily told at least four of her
supervisors that she had been diagnosed
with depression. See J.A. 179 (Hannah’s
interrogatory responses) (‘‘I disclosed my
diagnosis of depression to my supervisors
5.

‘‘To the extent possible, we construe the
ADA and Rehabilitation Act to impose similar
requirements.’’ Halpern v. Wake Forest Univ.

Kelly G. in summer 2011, Ann W. in fall
2014; Art Z. in March 2015, and Roy P. in
March 2015.’’).
[14] Hannah argues that these disclosures were not voluntary because they
were made in response to inquiries about
her disability. But the evidence does not
support or create a genuine issue of fact
about that argument. The record indicates
that only the March 2015 disclosure was
made in response to an inquiry, and that
inquiry was not medical -- it was about her
attendance. See J.A. 23 (Hannah’s deposition testimony) (‘‘[H]e was concerned
about unpredictability in my scheduleTTTT
I told him at that time I had depression.’’).
[15] Hannah asserts that this inquiry
about her attendance was de facto an inquiry into her depression because (according to Hannah) the inquiring supervisor
knew she was depressed and knew her
attendance issues were linked to her depression. Hannah cites only out-of-circuit
cases for the proposition that asking a
question ‘‘likely to elicit’’ information about
a disability amounts to a medical inquiry.
See Harrison v. Benchmark Elecs. Huntsville, Inc., 593 F.3d 1206, 1216 (11th Cir.
2010) (concluding that whether an inquiry
following a failed drug test was likely to
elicit information about a disability in violation of the Americans with Disabilities
Act (‘‘ADA’’)5 presented a question of fact
for a jury to resolve); Fleming v. State
Univ. of N.Y., 502 F.Supp.2d 324, 338
(E.D.N.Y. 2007) (concluding the plaintiff
pled facts sufficient to state a claim for
failure to confidentially maintain medical
information under the ADA where the
plaintiff alleged that his disclosure of his
sickle cell anemia was not voluntary because his supervisor called him while he
Health Scis., 669 F.3d 454, 461 (4th Cir.
2012).

15a

341

HANNAH P. v. COATS
Cite as 916 F.3d 327 (4th Cir. 2019)

was in the hospital and asked him why he
was there).
First, the record does not support Hannah’s argument that the supervisor in
question knew about Hannah’s depression
before she disclosed it to him. Hannah
points to the supervisor’s statement that
when he spoke to Hannah on the phone
before confronting her about her attendance, ‘‘she didn’t sound well on the other
end of the phone.’’ J.A. 466. Hannah also
points to her supervisor’s statement that
Hannah’s ‘‘demeanor [wa]s sad, very flat,
and almost trance like.’’ Id. at 413. This is
not enough to create a genuine issue of
material fact as to whether the inquiring
supervisor knew Hannah had been medically diagnosed with clinical depression, or
whether by asking about her attendance,
the supervisor was fishing for medical information about Hannah’s illness.
[16] Second, even if Hannah’s supervisor had an inkling that Hannah may have
had depression, this is not evidence that he
knew asking about her repeated absences
and tardiness -- indisputably bad work behavior -- would elicit medical information
related to her depression. Indeed, Hannah’s absences could have been the result
of a world of other, nonmedical possibilities, such as transportation issues or oversleeping. Adopting Hannah’s argument
would require us to find that where an
employer might know that a particular bad
work behavior is connected to a medical
condition, the employer cannot inquire into
the behavior without running afoul of the
ADA and Rehabilitation Act’s prohibition
on medical inquiries. We have held expressly the opposite: ‘‘[T]he ADA does not
require an employer to simply ignore an
employee’s blatant and persistent misconduct, even where that behavior is potentially tied to a medical condition.’’ Vannoy
v. Fed. Reserve Bank of Richmond, 827
F.3d 296, 305 (4th Cir. 2016) (citing Jones

v. Am. Postal Workers Union, 192 F.3d
417, 429 (4th Cir. 1999) (holding the ADA
does not ‘‘require an employer to ignore
such egregious misconduct by one of its
employees, even if the misconduct was
caused by the employee’s disability’’)).
b.
Disclosures by EAP Psychologist
[17] Hannah also argues that, in addition to her supervisors disclosing her depression diagnosis internally, the EAP
psychologist disclosed ‘‘additional, unique
information from what Hannah had already told her supervisors.’’ Appellant’s
Br. 51. Specifically, Hannah alleges that
the EAP psychologist told her supervisor
that Hannah was concerned about Appellee’s records retention policies, and that
Hannah’s ‘‘difficulties in getting to work
were the result of a lack of motivation, not
related to depression.’’ J.A. 540.
Perhaps that is true. The record does
indicate that the EAP psychologist shared
some information with Hannah’s supervisors and maybe it was unique information.
See J.A. 192 (EAP psychologist statement)
(noting that the psychologist provided
Hannah’s supervisors updates regarding
Hannah’s ‘‘EAP attendance’’ and ‘‘cooperation and progress toward resolving the
referral issues’’). But there is no evidence
that the EAP psychologist shared medical
information. To the contrary, the EAP
psychologist insisted, again and again, that
she did not share any confidential medical
information. See id. at 190 (noting that the
psychologist, who is not a doctor, ‘‘did not
disclose any confidential medical information’’ to anyone). Of note, Hannah did not
point to any evidence in the record contradicting the psychologist’s assertions.
Therefore, the information shared by
the EAP psychologist did not trigger the
Rehabilitation Act’s confidentiality protec-

16a

342

916 FEDERAL REPORTER, 3d SERIES

tions because the record indicates that the
EAP psychologist shared only nonmedical
information.
c.
Non-Reliance on Medical Information
Finally, even if either Hannah’s supervisors or the EAP psychologist disclosed
Hannah’s medical information, Appellee
still did not violate the Rehabilitation Act
because Appellee did not rely on Hannah’s
depression diagnosis or any other medical
information in deciding not to hire Hannah
for the Cyber position. Rather, the record
overwhelmingly indicates that Appellee’s
decision was based on Hannah’s attendance issues. Accordingly, Hannah has not
demonstrated that Appellee violated the
Rehabilitation Act by disclosing or misusing confidential medical information.
4.
Discrimination
[18–20] Rehabilitation Act claims for
discrimination are reviewed under the
McDonnell
Douglas
burden-shifting
framework. See Laber v. Harvey, 438 F.3d
404, 430 (4th Cir. 2006) (citing McDonnell
Douglas Corp. v. Green, 411 U.S. 792, 802,
93 S.Ct. 1817, 36 L.Ed.2d 668 (1973)); Perry v. Comput. Scis. Corp., 429 F. App’x
218, 219–20 (4th Cir. 2011). Under that
framework, Hannah has the initial burden
of establishing a prima facie case of discrimination. See Perry, 429 F. App’x at
220. To establish this prima facie case,
Hannah must show that: (1) she is disabled; (2) she was otherwise qualified for
the position; and (3) she suffered an adverse employment action solely on the basis of her disability. See id. (citing Constantine v. Rectors & Visitors of George
6.

The excerpt of the statement that is included
in the J.A. does not include the date. This date

Mason Univ., 411 F.3d 474, 498 (4th Cir.
2005)).
[21, 22] If Hannah establishes a prima
facie case, the burden shifts to Appellee to
provide a legitimate, nondiscriminatory
reason for its conduct. See Perry, 429 F.
App’x at 220. If Appellee provides such a
reason, Hannah ‘‘bears the ultimate burden of persuasion’’ and ‘‘must show by a
preponderance of the evidence that the
proffered reason was a pretext for discrimination.’’ Id.
a.
Establishing Pretext
Even assuming that Hannah established
a prima facie case of discrimination (which
Appellee disputes), she cannot succeed on
her claim that Appellee discriminated
against her by not hiring her for a permanent position because she did not sufficiently rebut Appellee’s proffered reason
for rejecting her application, as required
under the final step of the McDonnell
Douglas burden-shifting framework. See
Perry, 429 F. App’x at 220.
[23] Appellee presented evidence demonstrating that Hannah’s perpetual issues
with attendance, timeliness, and reporting
absences to her superiors were the bases
of its decision not to hire her for the
permanent position. Attempting to expose
that explanation as a ruse, Hannah pointed
to a purported inconsistency between the
sworn statement that Mark Ewing provided during the Equal Employment Opportunity Commission (‘‘EEOC’’) investigation
of Hannah’s case and an email he sent
more than a year earlier. In the sworn
statement, signed on April 26, 2016,6 Ewing asserts he ‘‘had no knowledge of [Hannah’s] disability.’’ J.A. 650. But in the
email, sent on June 30, 2015, Ewing refercomes from Hannah’s brief. See Appellant’s
Br. 26.

17a

343

HANNAH P. v. COATS
Cite as 916 F.3d 327 (4th Cir. 2019)

ences two memos that he received from
Hannah’s supervisors, both of which note
Hannah’s depression. See id. at 413 (April
9, 2015 memo) (‘‘Early in her tenure TTT
and reaffirmed recently, [Hannah] informed us that she was meeting with a
psychiatrist and counselor and taking medication for depression.’’); id. at 606 (April
23, 2015 memo) (‘‘While TTT medical considerations (i.e., depression and/or ADD)
do make this situation worse, these factors
are under her control based upon treatment plans with her psychologist and psychiatric care providers.’’). Underscoring
the significance of this inconsistency, Hannah argues, is the fact that Ewing did not
provide the June 30, 2015 email to the
EEOC. Hannah argues that the inconsistency, coupled with Ewing’s failure to disclose the email evidencing the inconsistency, illustrates ‘‘clear pretext.’’ Appellant’s
Br. 27.
Despite Hannah’s arguments to the contrary, this apparent discrepancy does not
create a genuine issue of material fact that
Appellee’s proffered reason for rejecting
Hannah’s application is pretextual. First,
nothing in the record indicates that Ewing
had first-hand knowledge of Hannah’s disability. Although the memos mention that
Hannah self-reported that she had depression, the second memo also describes Hannah’s depression as ‘‘under her control.’’
J.A. 606. Indeed, Ewing’s email suggests
that he did not know that Hannah had an
ongoing disability. See J.A. 635 (‘‘I am
informed that EAP concluded that [Hannah] does not have a medical problem,
rather she is a disciplinary problem.’’).
More significantly, Hannah’s asserted
contradiction between Ewing’s EEOC
statements and his June 30, 2015 email do
not create a genuine issue of material fact
about pretext because Ewing’s email and
the memos written by Hannah’s supervisors focus on Hannah’s attendance problems, not on her disability. See J.A. 413

(April 9, 2015 memo) (noting that ‘‘[Hannah’s] schedule has become increasingly
erratic’’ and that ‘‘frequent absences and
late arrivals [have begun] to affect her
assigned unit and individual performance’’); id. at 606 (April 23, 2015 memo)
(describing Hannah’s history of attendance
issues and Appellee’s attempts to accommodate Hannah and noting that, despite
those attempts, ‘‘[Hannah’s] late attendance has continued’’); id. at 635–36 (Ewing’s June 30, 2015 email) (detailing Hannah’s problem with ‘‘attendance at work,’’
noting that Hannah’s ‘‘absences and late
arrivals were affecting her assigned staff
element and her individual performance,’’
and concluding that Hannah’s ‘‘recent performance is not consistent with a potentially good employee.’’).
Accordingly, Hannah did not point to
any genuine issue of material fact that
Appellee’s purported basis for not hiring
her was merely a pretext for discriminating against her on the basis of her depression.
b.
Appellee’s Nondiscriminatory
Explanation
i.
Moreover, the record indicates that Appellee’s proffered explanation for not hiring Hannah for the Cyber position is genuine, legitimate, and nondiscriminatory.
[24, 25] As the district court concluded,
a continuous attendance issue is a legitimate reason for withholding an employment benefit. See Tyndall, 31 F.3d at 213
(finding an employee who cannot satisfy
their employer’s attendance policy cannot
be considered ‘‘qualified’’ for the purposes
of the ADA). Hannah might have been
exceptionally talented and substantively
good at her job, but as noted above, ‘‘[i]n
addition to possessing the skills necessary
to perform the job in question, an employ-

18a

344

916 FEDERAL REPORTER, 3d SERIES

ee must be willing and able to demonstrate
these skills by coming to work on a regular
basis.’’ Id.
Hannah asserts that ‘‘serious questions
of fact exist as to whether Hannah even
had ‘significant attendance and reporting
problems.’ ’’ Appellant’s Br. 28. But the
record evidences no less than 13 attendance issues that occurred in the 46 days
between Appellee’s first attempt to accommodate Hannah on March 19, 2015, and
the revised plan made on May 4, 2015.
Compare J.A. 114, 174 (noting Appellee’s
March 19, 2015 meeting with her supervisor and original accommodation asking her
to arrive at work by 10 AM or report to a
supervisor), with id. at 556 (indicating four
unexcused absences and nine late arrivals
between March 19 and April 29 that Appellee failed to timely report).7 In light of
Hannah’s failure to arrive or call in before
10 AM 13 times in 46 days, there is no
genuine issue of material fact about Hannah’s significant attendance and reporting
problem.
ii.
Hannah also argues that because her
disability was the cause of her attendance
7.

The record reflects the following late arrivals and absences for Hannah between March
19, 2015, and May 4, 2015: (1) April 2: Hannah emailed at 11:02 AM indicating she
would arrive to work by 12 PM; (2) April 8:
Hannah emailed at 11:05 AM indicating she
would arrive to work by 12 PM; Hannah
emailed again at 1:55 PM indicating she
would not be coming in that day; (3) April 9:
Hannah emailed at 11:11 AM indicating her
car was towed and she would arrive at work
by 1 PM; (4) April 13: Hannah emailed at
10:58 AM indicating she would arrive at work
by 11:30 AM; (5) April 14: Hannah emailed at
11:08 AM indicating she would arrive at work
by 12 PM; (6) April 16: Hannah’s supervisor
emailed Hannah at 10:18 AM looking for her;
when Hannah was reached at 11 AM, she
indicated she would arrive to work by 12 PM;
(7) April 20: Hannah emailed at 10:45 AM
indicating she would arrive to work by 11:30

issues, Appellee could not withhold an employment benefit from her on that basis.
We have no doubt that Hannah’s struggle
with depression was the cause of her attendance issues, and we are sympathetic
to the toll this condition took on a highly
talented employee. However, Appellee
was nevertheless permitted to take Hannah’s attendance issues into account in its
decision whether to hire her for the Cyber position. To reiterate, the Rehabilitation Act ‘‘does not require an employer to
simply ignore an employee’s blatant and
persistent misconduct, even where that
behavior is potentially tied to a medical
condition.’’ Vannoy, 827 F.3d at 305; cf.
Martinson v. Kinney Shoe Corp., 104
F.3d 683, 686 n.3 (4th Cir. 1997) (‘‘Misconduct -- even misconduct related to a disability -- is not itself a disability, and an
employer is free to fire an employee on
that basis.’’).
iii.
Finally, Hannah argues that by the time
Appellee made the decision not to hire her,
her attendance had improved. She asserts
AM; Hannah’s supervisor confirmed her arrival at 12:50 PM; (8) April 22: Hannah
emailed at 11:01 AM indicating she would
arrive at work after 12 PM; Hannah emailed
again at 12:41 PM indicating she would arrive
at 1 PM due to traffic; (9) April 23: Hannah
emailed at 10:59 AM indicating she would
arrive at work by 12 PM; Hannah emailed
again at 12:56 PM indicating she would not
be coming in that day due to a migraine; (10)
April 24: Hannah emailed at 11:02 AM indicating she would arrive at work in the afternoon; Hannah later called at 3:24 PM indicating she would not be coming in that day; (11)
April 27: Hannah’s supervisor emailed indicating Hannah arrived at work by 11 AM; (12)
April 28: Hannah emailed at 10:52 AM indicating she would arrive at work by 11:30 AM;
(13) April 29: Hannah emailed at 11:49 AM
indicating she would not come in to work that
day. See J.A. 556.

19a

345

HANNAH P. v. COATS
Cite as 916 F.3d 327 (4th Cir. 2019)

that between returning from her leave of
absence on June 1, 2015, and learning that
she was not selected for the permanent
position on June 17, 2015, she ‘‘had shown
she was able to perform the essential functions of the job and had no current attendance issues.’’ Appellant’s Br. 32.

job. 29 U.S.C. § 2612(a)(1)(D). ‘‘The employee has an accompanying right to return to the same or an equivalent position
at the conclusion of the leave period.’’ Reed
v. Buckeye Fire Equip., 241 F. App’x 917,
923 (4th Cir. 2007) (citing 29 U.S.C.
§ 2614(a)(1)).

[26] Hannah is correct that in a failure
to hire case, the relevant inquiry is the
candidate’s performance ‘‘at the time of
the employment decision or in the immediate future.’’ Lamb v. Qualex, Inc., 33 F.
App’x 49, 57 (4th Cir. 2002). However,
Appellee was not required to consider the
two weeks before the decision was made in
a vacuum. Moreover, it is not the job of
this court to decide whether Appellee
made the right choice by not hiring Hannah for the Cyber position. Rather, our job
is simply to decide whether Appellee made
an illegal choice. See Feldman v. Law
Enf’t Assocs. Corp., 752 F.3d 339, 350 (4th
Cir. 2014) (explaining that we do not ‘‘sit
as a kind of super-personnel department
weighing the prudence of employment decisions’’).

As discussed below, as to Hannah’s
FMLA interference claim, Hannah illustrates a genuine issue of material fact regarding the notice of her depression and
her desire to take a leave of absence. But,
for the same reasons Hannah’s Rehabilitation Act discrimination claim fails, Hannah’s FMLA retaliation claim fails as well.

Because Hannah not did demonstrate
that Appellee’s purported basis for not
hiring her was merely a pretext for discriminating against her on the basis of her
depression, and because Hannah’s attendance problem was a legitimate and nondiscriminatory reason to not hire her, we
conclude that summary judgment was appropriate on her Rehabilitation Act discrimination claim.
B.
FMLA Claims
[27] The FMLA gives employees with
qualifying medical conditions the right to
take up to 12 weeks of leave during a 12month period ‘‘[b]ecause of a serious
health condition that makes the employee
unable to perform the functions of’’ her

1.
Interference
a.
The district court incorrectly concluded
that Hannah’s disclosure of her depression
was not sufficient to put Appellee on notice
that Hannah could have qualified for
FMLA protections. Accordingly, summary
judgment was not warranted as to Hannah’s FMLA interference claim.
[28–32] ‘‘An employee is mandated to
provide notice to her employer when she
requires FMLA leave.’’ Brushwood v. Wachovia Bank, N.A., 520 F. App’x 154, 157
(4th Cir. 2013) (quoting Rhoads v. FDIC,
257 F.3d 373, 382 (4th Cir. 2001)). That
said, an employee need not specifically invoke the FMLA to benefit from its protections. See Dotson v. Pfizer, Inc., 558 F.3d
284, 295 (4th Cir. 2009). Proper notice does
not require ‘‘any magic words.’’ Id. Indeed,
‘‘[w]hen an employee seeks leave for the
first time for a[n] FMLA-qualifying reason, the employee need not expressly assert rights under the FMLA or even mention the FMLA.’’ 29 C.F.R. § 825.302.
Proper notice merely ‘‘makes the employer
aware’’ that the employee needs potential-

20a

346

916 FEDERAL REPORTER, 3d SERIES

ly FMLA-qualifying leave. Brushwood, 520
F. App’x at 157. And once the employer is
on notice of the employee’s need to take
potentially FMLA-qualifying leave, ‘‘the
responsibility falls on the employer to inquire further about whether the employee
is seeking FMLA leave.’’ Dotson, 558 F.3d
at 295.
[33] A reasonable jury could find that
Hannah’s disclosure of her depression and
her April 9, 2015 request for psychiatristrecommended leave was sufficient to trigger Appellee’s responsibility to inquire further about whether Hannah was seeking
FMLA leave. We have held that disclosure
of a potentially FMLA-qualifying circumstance and an inquiry into leave options is
sufficient to create a material question of
fact regarding whether an employee triggered her employer’s FMLA obligations.
See Dotson, 558 F.3d at 291, 295 (finding
that an employee informing his employer
that he was adopting a child and speaking
to a human resources representative about
‘‘taking leave during the adoption process’’
was sufficient to create a question of fact
as to whether the employer’s FMLA-inquiry duties had been triggered).

depression and her psychiatrist’s recommendation could lead a reasonable jury to
find that Appellee was on notice that Hannah was inquiring about potentially
FMLA-qualifying leave, triggering Appellee’s responsibility to inquire further about
whether Hannah was seeking FMLA
leave.9
c.
Appellee argues that Hannah’s interference claim fails because Hannah cannot
demonstrate that her depression was ‘‘a
serious health condition.’’ Appellee’s Resp.
40–41; see also 29 U.S.C. § 2612(a)(1)(D).
But that argument is premature. Appellee
has not shown that it made any inquiry
into whether Hannah’s depression was an
FMLA-qualifying serious health condition.
Appellee’s argument ‘‘would allow it to use
its own failure to determine whether leave
should be designated as FMLA-protected
to block liability.’’ Dotson, 558 F.3d at 295.
We have refused ‘‘to allow an employer to
take advantage of its own lapse in such a
way.’’ Id.
d.

Here, Hannah informed her supervisors
of her depression on multiple occasions.
See, e.g., J.A. 413 (April 9, 2015 memo
from Hannah’s supervisors) (‘‘Early in her
tenure TTT and reaffirmed recently, [Hannah] informed us that she was meeting
with a psychiatrist and counselor and taking medication for depression.’’).8 And on
April 9, 2015, Hannah explained to her
supervisors that her psychiatrist recommended that she take four weeks of medical leave. Hannah’s disclosures about her

[34, 35] Additionally, Appellee’s failure
to provide notice of the availability of
FMLA leave prejudiced Hannah because if
she had been aware of the availability of
FMLA leave, she could have structured
her leave differently. The FMLA ‘‘provides
no relief unless the employee has been
prejudiced by the violation.’’ Vannoy, 827
F.3d at 302 (citing Ragsdale v. Wolverine
World Wide, Inc., 535 U.S. 81, 89, 122
S.Ct. 1155, 152 L.Ed.2d 167 (2002)). ‘‘Prejudice may be gleaned from evidence that
had the plaintiff received the required (but
omitted) information regarding his FMLA

8.

9.

b.

Indeed, Hannah’s supervisors had ‘‘grown
increasingly alarmed at the overall change in
[Hannah’s] demeanor.’’ J.A. 413.

It is undisputed that Appellee did not inquire about whether the leave should be classified as FMLA-protected.

21a

HANNAH P. v. COATS
Cite as 916 F.3d 327 (4th Cir. 2019)

rights, he would have structured his leave
differently.’’ Id.
[36] Here, the record contains evidence that if Hannah had known that the
FMLA protected her position, she would
have used only sick leave for her leave of
absence. See J.A. 664 (Hannah’s declaration) (‘‘Had I known I could have chosen to
take sick leave for the entire period, I
would have elected to do so.’’). Instead, she
used a combination of sick leave and annual time to take four weeks off. According
to Hannah, ‘‘[u]nlike annual leave, sick
leave is not paid out at the end of an
employee’s service, resulting in a loss of a
benefit worth at least $20,000.’’ Id. Based
on Hannah’s testimony, a jury could find
that Hannah was prejudiced by Appellee’s
failure to inquire into the availability of
FMLA leave and thus interfered with her
FMLA rights.
For these reasons, Hannah has demonstrated a genuine issue of material fact
that should have precluded summary judgment on her FMLA interference claim.
2.
Retaliation
As for Hannah’s FMLA retaliation
claim, however, the district court correctly
concluded that like her discrimination
claim brought pursuant to the Rehabilitation Act, Hannah did not sufficiently rebut
Appellee’s legitimate, nonretaliatory reason for not hiring Hannah for the Cyber
position.
[37–40] The FMLA prohibits employers from discriminating against an employee for exercising her FMLA rights. See 29
U.S.C. § 2615(a)(2). As relevant here, ‘‘employers cannot use the taking of FMLA
leave as a negative factor in employment
actions.’’ 29 C.F.R. § 825.220(c). Courts
analyze FMLA retaliation claims, like discrimination claims brought pursuant to the

347

Rehabilitation Act, under the McDonnell
Douglas burden-shifting framework. See
Laing v. Fed. Express Corp., 703 F.3d 713,
717 (4th Cir. 2013). To establish a prima
facie case of FMLA retaliation, a plaintiff
must demonstrate that ‘‘(1) she engaged in
a protected activity; (2) her employer took
an adverse employment action against her;
and (3) there was a causal link between the
two events.’’ Adams v. Anne Arundel Cty.
Pub. Schs., 789 F.3d 422, 429 (4th Cir.
2015) (internal quotation marks omitted).
If the plaintiff establishes a prima facie
case, the burden shifts to the defendant to
provide a legitimate, nonretaliatory reason
for taking the employment action at issue.
Id. If the defendant does so, the burden
shifts back to the plaintiff to demonstrate
that the defendant’s proffered reason is
pretextual. Id.
Even assuming Hannah demonstrated a
prima facie case of FMLA retaliation,
summary judgment was proper because
she failed to rebut Appellee’s legitimate,
nonretaliatory reason for not hiring her for
the Cyber position. Appellee asserts that it
relied on Hannah’s attendance issues in
deciding not to hire her for the position,
and the evidence in the record supports
that assertion. See J.A. 635–36 (Ewing’s
June 30, 2015 email expressing concerns
about Hannah’s application for the Cyber
position) (noting, ‘‘despite some apparently
solid performance while on the Snowden
project,’’ Appellee had ‘‘a consistent history of issues with [Hannah] over many
months’’ regarding Hannah’s ‘‘attendance
at work and attitude’’); id. at 219 (Ewing’s
deposition testimony) (‘‘The primary reason that I was concerned [about Hannah’s
application] was the fact that her conduct
was extremely negative at the point of
time we were making a hiring decision for
permanent employment status.’’). Hannah
points to no evidence that adequately un-

22a

348

916 FEDERAL REPORTER, 3d SERIES

dermines Appellee’s proffered nonretaliatory reason for not hiring her.10
Accordingly, the district court properly
granted summary judgment on Hannah’s
FMLA retaliation claim.
IV.
For these reasons, we affirm the judgment of the district court as to Hannah’s
Rehabilitation Act claims and FMLA retaliation claim. We vacate the grant of
summary judgment as to Hannah’s FMLA
interference claim because there is a genuine issue of fact as to whether Hannah’s
disclosure of her depression was sufficient
to put Appellee on notice that Hannah
could have qualified for FMLA protections. Accordingly, we remand for further
proceedings as to that claim.
AFFIRMED IN PART, VACATED IN
PART, AND REMANDED
GREGORY, Chief Judge, concurring in
part and dissenting in part:
Hannah P. was undisputedly an excellent intelligence officer. The Office of the
Director of National Intelligence (‘‘ODNI’’)
entrusted her with the high-stress, highprofile Edward Snowden case. She worked
tirelessly and impeccably on that assignment, and ODNI praised her performance.
For the duration of that assignment, Hannah kept nonconventional work hours with
the knowledge and consent of her supervisors, and her attendance was not considered a problem.

on a flexible schedule. When Hannah requested an accommodation for her depression—a leave of absence recommended by
both of her medical professionals—Hannah’s supervisors refused to timely grant
the request. This was despite the fact that
her supervisors had offered to grant her
leave just a few months earlier—before
her depression was triggered.
The result of this was tragic. Hannah
was denied a permanent position for which
it is undisputed that she was exceptionally
qualified and for which the interview panel
unanimously selected her. ODNI concedes
that Hannah’s depression qualifies as a
disability protected by the Rehabilitation
Act. Yet, the employer denied Hannah, a
dedicated and valuable employee, the protection that the law requires.
The majority mistakenly fails to see the
force of Hannah’s claims. Though the majority cites repeatedly to our decision in
Vannoy v. Federal Reserve Bank of Richmond, it fails to grapple with the stark
distinctions between the ‘‘blatant and persistent misconduct’’ by the employee in
that case and Hannah’s cooperative attempts to satisfy her supervisors’ expectations, despite the increasingly severe
symptoms of her disability. 827 F.3d 296,
300 (4th Cir. 2016).

It was only after the Snowden project
ended, and Hannah’s depression worsened,
that her supervisors found fault with her
work hours, though she remained formally

While I concur in Parts III.A.2.a, III.
A.3, and III.B.1 of the Court’s opinion, I
cannot agree that no genuine issue of material fact exists with respect to Hannah’s
claims that ODNI violated the Rehabilitation Act and Family and Medical Leave
Act (‘‘FMLA’’) when it discriminated
against her on the basis of her disability,
failed to reasonably accommodate her depression, wrongfully required a medical

10. Hannah again argues, as she did in the
context of her claim of discrimination under
the Rehabilitation Act, that the ‘‘inconsistency’’ between the sworn statement Ewing provided during the EEOC investigation of Han-

nah’s case and an email he sent more than a
year earlier exposes Appellee’s proffered reason for not hiring her for the permanent
position as pretextual. For the same reasons
explained above, that argument fails.

23a

HANNAH P. v. COATS
Cite as 916 F.3d 327 (4th Cir. 2019)

349

examination of her as a current employee,
and chose not to hire her for permanent
employment in retaliation for her FMLAqualifying leave. I believe that several disputes of fact exist and that Hannah is
entitled to her day in court. Therefore, I
respectfully dissent with respect to those
claims.

employees ‘‘after finishing a burn-out job.’’
J.A. 173. Hannah did not take her supervisors up on the offer, however, not only
because she was interviewing for permanent employment, but also because ‘‘there
was still ambiguity over whether the
[Snowden] disclosures responsibilities had
truly finished.’’ Id.

I.

During this time, Hannah’s depression
became more serious. She had trouble arriving at work before noon and had unscheduled absences. Hannah remained on
a maxi flex schedule, however, and it was
not until March 19, 2015, that she was
informed that her attendance and arrival
time were problematic. J.A. 461, 495. In
fact, her first-line supervisor had no concerns about her attendance or work hours
in early 2015 and asked Hannah to fill in
as acting chief of their division while he
was out of the office in late February. J.A.
494–95, 498.

Hannah’s supervisors were informed
early in her employment that she suffered
from depression. She was under the treatment of a psychiatrist and a licensed clinical social worker and did not initially request any work accommodations because
she ‘‘was adequately handling [her] depression at the time with medication and
counseling.’’ J.A. 19–20.
Despite her depression, Hannah excelled
at her job. In her position as the disclosures coordinator for the Edward Snowden
project, her ‘‘leadership, poise, and performance were impeccable.’’ J.A. 412. She
was described by her supervisors as ‘‘an
outstanding employee combining energy/drive, technical competence, superb
communication and networking skills, and
superior analytic tradecraft.’’ Id. In short,
Hannah was considered ‘‘an invaluable intelligence officer and a future [Intelligence
Community] leader.’’ Id.
The high-profile Snowden project required long work hours, and Hannah was
not required to maintain an established
‘‘core’’ hours schedule. Instead, she worked
a ‘‘maxi flex’’ schedule, which permitted
her to vary her schedule so long as she put
in 80 hours of work in each two-week
period. J.A. 492–93. She often came in
later than other ODNI employees (around
noon), but stayed later as well. J.A. 494.
In November or December 2014, as the
Snowden project was coming to a close,
Hannah’s supervisors encouraged her to
take leave, a common practice for ODNI

When Hannah’s supervisor spoke with
her about her work hours on March 19,
2015, Hannah was not told that she was
required to return to a ‘‘core’’ schedule.
Rather, Hannah and her first-line supervisor agreed that Hannah would either arrive at work by 10:00 a.m. or contact her
supervisors if she was unable to arrive by
that time; if she neither arrived at work
nor contacted the office by 11:00 a.m., her
supervisor would reach out to her by
phone. J.A. 114. Hannah’s second-line supervisor had no objection to the arrangement; he ‘‘wanted to see what would happen.’’ J.A. 345.
The day after making this arrangement,
Hannah did not report for work by 10:00
a.m. When she did not arrive by 11:00
a.m., her supervisors did not call her. Instead, she emailed them at 11:05 a.m.,
advising she would be in around 12:30 p.m.
J.A. 118.

24a

350

916 FEDERAL REPORTER, 3d SERIES

After that work day, Hannah began a
pre-scheduled week-long leave during
which she was preoccupied with home renovations. J.A. 114. At the end of the week,
she emailed her supervisors to inform
them she would not be in Monday, the
next business day, because of the renovations. J.A. 120. On Tuesday, Hannah
emailed her supervisors notifying them
that she would not be in that day either.
J.A. 122.
On Wednesday, when Hannah did not
come in by 10:00 a.m., Hannah’s secondline supervisor called her. J.A. 174. According to Hannah, her supervisor was
‘‘angry’’ and demanded to know why Hannah had not arrived. Id. Hannah apologized, explained she was having trouble
getting out of bed, and indicated that she
would be in as soon as possible. Id. When
she arrived at work, her supervisor told
her that the arrangement they had made
‘‘was not working.’’ J.A. 175. She was told
that she was solely responsible for contacting the office in the event she would be
late or absent, and that her supervisors
would not be contacting her. J.A. 90. The
arrangement had been in place for a total
of four days on which Hannah was scheduled to work.
Hannah asked that her supervisors ‘‘give
the current accommodation more time to
work.’’ J.A. 175. Her supervisor, who was
aware of Hannah’s depression, insisted
that Hannah propose an alternative plan
‘‘right then.’’ Id. She was ultimately given
‘‘a day or two’’ to propose an alternative.
Id.
The next day, on April 2, 2015, Hannah
emailed her supervisors at 11:02 a.m., notifying them that she would be in by noon.
J.A. 124. That day, Hannah’s supervisors
1.

Hannah was referred to the CIA’s EAP program because ODNI did not have one of its
own. The EAP provides employees with ‘‘free,
confidential, short-term mental health[,] fi-

met with ODNI’s Employee Management
Relations Officer, the head of ODNI’s
Equal Employment Opportunity and Diversity Office, and the head of ODNI’s
Human Resources Division to discuss how
to best address Hannah’s attendance and
reporting. J.A. 66, 128, 149. They collectively decided to refer Hannah to the Central Intelligence Agency’s Employee Assistance Program (‘‘EAP’’).1 J.A. 326–29.
Although Hannah’s supervisors were well
aware of her depression, she was referred
to the EAP to ‘‘help identify what her
challenges were and provide her any support she needed,’’ such as ‘‘accommodation
with work hours, TTT counseling or any
other type of support.’’ J.A. 139–40.
Hannah’s supervisors drafted a memorandum, which they dated April 9, 2015,
referring Hannah to the EAP. The memo
outlined Hannah’s ‘‘impressive capabilities’’
and her work with ODNI, commented on
her recent attendance, and explained that
Hannah had disclosed to her supervisors
that she was meeting with a psychiatrist
and counselor and taking medication for
depression. J.A. 412–13. The memo also
noted:
Hannah has indicated that she is struggling to get out of bed in the morning
and admits to feeling almost paralyzed.
She has also indicated that she had a
recent change in medication and that the
upheaval in her living arrangements
negatively impacted some of her physical coping mechanisms.
J.A. 413. The memo explained that ‘‘as
senior intelligence officials,’’ Hannah’s supervisors ‘‘ha[d] a duty to identify and if
possible help vulnerable employees.’’ J.A.
414.
nancial, and addictions counseling and referral to cleared community providers.’’ J.A.
132.

25a

HANNAH P. v. COATS
Cite as 916 F.3d 327 (4th Cir. 2019)

Meanwhile, Hannah met with her psychiatrist and counselor. Both professionals
agreed that Hannah should take four
weeks of leave. J.A. 175. Accordingly, Hannah met with her supervisors on April 9,
2015 and requested a four-week leave of
absence. J.A. 424, 449, 468. Her supervisors did not ask her for any medical documentation to support the leave request
because they expected to receive a ‘‘quick
answer’’ from EAP. J.A. 95. They also
believed that Hannah’s medical providers
did not have ‘‘the expertise to provide’’ an
opinion on ‘‘all of the items’’ that they were
planning to submit to EPA. Id.
Hannah’s supervisors denied her leave
request; they had already determined before meeting with Hannah that if Hannah
asked for leave, they would ‘‘defer that
decision until after meeting with EAP.’’
J.A. 422. One of Hannah’s supervisors explained in her deposition that she ‘‘wanted
to get a sense [Hannah] was in a good
place.’’ J.A. 431. According to that supervisor, the ‘‘rationale’’ of the group that decided to refer Hannah to EAP first was:
If this were TTT a bad behavior problem, there would be no need to grant
immediate leave.
If it were a medical mental health
problem, the thought was, granting
leave and isolating [Hannah] from dayto-day contact with her coworkers and
her managers when we didn’t know her
state of mind and how much medical
care she was receiving could, potentially,
be dangerous.
J.A. 422–23. Hannah’s second-line supervisor told her that the decision was made
because of concern that ‘‘since [Hannah]
was a single woman if [she] took leave
[she] would be home by [herself] and that
could make [her] depression worse.’’ J.A.
176. It was made clear that Hannah was
required to attend EAP counseling; if she
refused, her temporary position would be

351

deemed ‘‘as excess’’ and she would lose her
job ‘‘immediately.’’ Id.
Hannah’s first-line supervisor disagreed
with the others’ proposed course of action;
he believed that the supervisors should not
‘‘substitute [their] judgment for [Hannah’s]
doctor’s.’’ J.A. 504. Nonetheless, Hannah
signed the memo to EAP and attended an
appointment with an EAP counselor the
next day, April 10, 2015.
On Monday, April 13, 2015, Hannah met
again with one of her supervisors to discuss her leave request. Her supervisor told
her that her leave request was approved
but ‘‘was pushing’’ her to take only two
weeks off, not the four she had requested.
J.A. 524, 528. He explained that Hannah
would have to submit to a medical evaluation if she wished to take leave beyond the
two weeks. J.A. 524. Hannah felt uncomfortable with her supervisor’s pushiness
and confused about the status of her leave
request so she responded that her request
was ‘‘on hold.’’ Id. She wanted to figure out
what the EAP counselor had told her supervisor and to confirm her legal options.
Id.
Hannah continued to arrive at work later than 10:00 a.m. during April 2015. During that month, Hannah also continued
attending the EAP sessions. In those sessions, Hannah testified, she was questioned about her medical history, her family’s medical history, and the medication
she was taking and its dosage. J.A. 531–32.
In the third session, Hannah was given a
diagnostic questionnaire ‘‘to assess depression or severity of those sorts of things.’’
J.A. 534.
On April 16, 2015, the EAP counselor
had an extended forty-minute discussion
with Hannah’s second-line supervisor. During that discussion, the counselor disclosed
that Hannah’s ‘‘lack of motivation/inability
to come to work’’ was primarily influenced
by feelings of frustration over not securing

26a

352

916 FEDERAL REPORTER, 3d SERIES

a permanent position at ODNI. J.A. 604.
At some point, the counselor also indicated
that Hannah was not cooperating with the
EAP process because she was spending
‘‘more than half the session at times’’ expressing concerns over the record retention policy. J.A. 192.
A week later, Hannah’s second-line supervisor circulated a status update via
email to ODNI leadership outlining the
information shared by the EAP counselor.
That information included Hannah’s explained reasons for her inability to arrive
punctually for work, as well as Hannah’s
concerns that the EAP process would ‘‘create a paper trail that [would] adversely
impact her future employment and career.’’ J.A. 606. The email also indicated
that the EAP counselor had identified
‘‘non-medical’’ factors as the primary cause
of Hannah’s attendance problems. J.A. 607.
On April 28, 2015, Hannah met with one
of her supervisors and reiterated her request for four weeks of leave. J.A. 41. She
was told that her leave request would be
approved if she met with the EAP counselor once more on May 1, 2015 and signed a
Letter of Expectations. J.A. 42. Hannah
attended the May 1 appointment and
signed the Letter of Expectations on May
4, 2015. J.A. 43. The Letter of Expectations provided that, ‘‘[e]ffective immediately,’’ Hannah would begin work by 10:00
a.m. and would contact her office no later
than 9:30 a.m. in the event she would be
late. J.A. 614.
Beginning on May 5, 2015, Hannah took
a four-week leave of absence. She returned
to work on June 1, 2015 and was immediately tasked with leading a significant
study. J.A. 44–45. Her attendance problem
‘‘largely disappeared as Hannah responded
to the need for daily meetings all over the
community.’’ J.A. 612.
On June 9, 2015, Hannah interviewed for
a permanent position with ODNI—Pro-

gram Mission Manager Cyber (‘‘Cyber’’), a
job she had applied for at the end of April
or beginning of May 2015. J.A. 620–21. She
was unanimously selected by the interview
panel as the most qualified candidate for
the position. J.A. 206, 625. A week later,
the interview panel forwarded its recommendation to ODNI’s Chief Management
Officer, Mark Ewing. J.A. 206–07. Ewing
was already aware of the decision to refer
Hannah to the EAP and had been consulted in that decision-making process. J.A.
216. As Ewing testified, the EAP referral
was intended not only to address Hannah’s
issues with the temporary job she had at
the time; Ewing’s ‘‘concern was her conduct in relationship to being selected for a
permanent government position.’’ J.A. 217,
585.
Hannah’s application for the Cyber position stalled for several weeks, despite
the fact that the approval process typically only took a few days. J.A. 443, 630. On
June 25, 2015, members of the interview
panel began questioning the holdup. J.A.
633. In response, Ewing sent an email to
the Principal Deputy Director of National
Intelligence (‘‘PDDNI’’) recommending
that Hannah not be approved for the Cyber position based on her recent attendance history. J.A. 635–36. Ewing also represented that the EAP counselor had
concluded that Hannah did not have a
medical problem, ‘‘rather she is a disciplinary problem.’’ J.A. 635.
The PDDNI shared that email with the
Director of National Intelligence (‘‘DNI’’).
Neither the PDDNI nor the DNI approved Hannah for the permanent position. J.A. 722. On July 7, 2015, Hannah
was notified that she was not selected for
the position. J.A. 638. Hannah completed
her temporary term at ODNI on March
27, 2016 as a high performer, yet did not
secure a permanent position with the department.

27a

HANNAH P. v. COATS
Cite as 916 F.3d 327 (4th Cir. 2019)

II.
A.
I first take issue with the Court’s treatment of Hannah’s discrimination claim under the Rehabilitation Act. The majority
concludes that Hannah’s 13 ‘‘attendance
issues’’ between March 19, 2015 and May
4, 2015 constituted a ‘‘significant attendance and reporting problem.’’ Maj. Op. at
343–44. Accordingly, the majority credits
this proffered legitimate, non-discriminatory reason for ODNI’s failure to hire Hannah for the permanent Cyber position.2
The majority also concludes that Hannah
has failed to satisfy her burden at this
stage of presenting sufficient evidence that
ODNI’s explanation for rejecting her application is pretext for disability discrimination. Maj. Op. 342–43.
I disagree with the majority’s conclusions for several reasons. Fundamentally,
ODNI’s proffered reason for not hiring
Hannah reflects a misunderstanding of
Hannah’s disability. Among the most typical symptoms of depression are a loss of
interest in nearly all activities, decreased
energy, disturbed or irregular sleep, and
an impaired ability to function in one’s
daily activities, including communicating
with others. Jerry Von Talge, Ph. D., Major Depressive Disorder—Essential Features, 26 Am. Jurisprudence Proof of
Facts 1, § 12 (3d ed. 1994); Spangler v.
Fed. Home Loan Bank of Des Moines, 278
F.3d 847, 853 (8th Cir. 2002) (‘‘A jury could
consider the difficulty one suffering from
depression has with communications
TTTT’’). ‘‘Even the smallest tasks seem to
require substantial effort.’’ VonTalge, Major Depressive Disorder—Essential Features, 26 Am. Jurisprudence Proof of
Facts 1, § 12. In Hannah’s case, although
2.

ODNI does not dispute that Hannah’s depression qualifies as a disability under the

353

she was taking medication to treat her
depression, she was ‘‘unable to just get
going.’’ J.A. 413. She was ‘‘lethargic or
almost unconcerned.’’ Id. Her demeanor
was ‘‘sad, very flat, and almost trance
like.’’ Id. Yet, Hannah came to work, and
her job performance remained ‘‘excellent.’’
J.A. 408.
In light of the nature of Hannah’s disability and the record evidence, I am baffled by the majority’s conclusion that her
conduct amounted to a ‘‘significant attendance and reporting problem’’ as a matter
of law. Maj. Op. at 344; see Vannoy v. Fed.
Reserve Bank of Richmond, 827 F.3d 296,
300 (4th Cir. 2016) (‘‘Summary judgment is
appropriate if there is no genuine dispute
as to any material fact and the movant is
entitled to judgment as a matter of law.’’
(internal citations and quotation marks
omitted)). Hannah’s behavior is far from
the ‘‘blatant and persistent misconduct’’
that we have found to be lawful grounds
for adverse employment actions in this
context. Vannoy, 827 F.3d at 305. In Vannoy, for example, the employee, like Hannah, suffered from depression. Id. at 299.
We found that Vannoy’s employer had a
legitimate, non-discriminatory reason to
terminate his employment, despite his disability, when Vannoy had several unscheduled absences from work; drove an employer vehicle for a three-day, out-of-state
work assignment and stayed at a hotel
paid for by his employer, yet did not once
report for duty; refused to complete his
portion of a performance improvement
plan; and left work without authorization.
Id. at 299–300, 305. It was in that context
that we explained that the Americans with
Disabilities Act (‘‘ADA’’) ‘‘does not require
an employer to simply ignore an employee’s blatant and persistent misconduct,
Rehabilitation Act.

28a

354

916 FEDERAL REPORTER, 3d SERIES

even where that behavior is potentially
tied to a medical condition.’’ Id. at 305
(emphasis added); see also 29 U.S.C.
§ 791(f) (incorporating ADA employment
standards into section 501 of the Rehabilitation Act).
Unlike in Vannoy, the record here does
not paint a picture of Hannah as an insubordinate employee who refused to cooperate with her employer and blatantly
misused department resources. To the
contrary, Hannah openly communicated
with her supervisors, even if she did so
later in the day than they had expected.
She informed her supervisors of her depression and cooperated by attending the
sessions with the EAP counselor. During
the 46-day period between the first accommodation and Hannah’s written agreement
to begin work at a specified time, she had
four unscheduled absences and came into
work after 10:00 a.m. nine times. J.A. 556.
On all but two occasions she communicated her anticipated schedule to ODNI. And
on one of those two occasions, Hannah arrived by 11:00 a.m., the time after which
her supervisors were to contact her. Id.
During this time she actively worked with
her medical professionals to design an alternative solution, and she requested, on
more than one occasion, that ODNI grant
the recommended leave of absence. In
fact, Hannah was absent only once and
arrived after 10:00 a.m. only twice before
her initial leave request was denied. See
id. Had her supervisors granted her leave
of absence on April 9 when she first requested it, many of her attendance issues
would have been avoided. A jury could
reasonably conclude that Hannah’s late arrivals to work continued only because her
depression was not effectively accommodated. See J.A. 175 (both medical professionals recommended four-week leave);
J.A. 612 (noting Hannah’s attendance
problem ‘‘largely disappeared’’ upon her
return from leave). On this record, I find

unfounded the characterization of Hannah’s conduct as blatant and persistent as
a matter of law.
Furthermore, Hannah has sufficiently
shown that ODNI’s proffered reason for
not hiring her—her attendance problems—may be pretext for disability discrimination. At the summary judgment
stage, Hannah need not conclusively prove
discrimination. But she must proffer sufficient evidence from which a reasonable
jury could conclude that she was in fact
the victim of intentional discrimination by
ODNI. Reyazuddin v. Montgomery Cty.,
Md., 789 F.3d 407, 419 (4th Cir. 2015). I
would find that she has met this burden
for two reasons.
First, as Hannah argues, questions of
fact exist as to whether her attendance
was a serious problem, or whether her
attendance even violated any work-hours
policy. The record suggests that it was not
until May 4, 2015 that Hannah was given a
formal time by which to arrive at work.
See, e.g., J.A. 108 (‘‘[D]ifferent people had
different schedules TTTT’’); id. (explaining
that while most employees arrived at work
around 9:00 a.m., there was no ‘‘explicit’’
requirement to do so); J.A. 518 (denying
that a ‘‘core hours expectation’’ existed
before September or October 2015). Although her supervisors told her on March
19, 2015 that she was to report by 10:00
a.m., they also initially agreed to contact
her if she did not report by 11:00 a.m. Had
the 10:00 a.m. start time been deemed a
requirement, it would make little sense to
have made any further arrangements.
When one of her supervisors attempted to
unilaterally change that arrangement, he
acceded to Hannah’s request for time to
propose an alternative. Hannah requested
the doctor-recommended leave of absence
as an alternative, but she was never told
that she was required to work specific
hours; she remained formally on a maxi

29a

355

HANNAH P. v. COATS
Cite as 916 F.3d 327 (4th Cir. 2019)

flex schedule. It was not until the Letter of
Expectation on May 4, 2015 that a formal
start time was imposed. The department
itself did not move to ‘‘core’’ hours until
October 2015. J.A. 518. Therefore, Hannah’s work schedule during the relevant
time may have been ‘‘erratic,’’ Maj. Op.
343, but a reasonable jury could conclude
that it did not violate any established
work-hours requirement.3
Second, I would find that Mark Ewing’s
inconsistent statements regarding his
knowledge of Hannah’s disability, coupled
with the above evidence, are sufficient evidence of pretext to survive summary judgment. The majority emphasizes that Ewing
did not have first-hand knowledge of her
condition and that he was informed that
her depression was under control. Maj. Op.
342–43. But depression is not like physical
illnesses; it does not simply dissipate overnight. Its symptoms may be under control
one day yet triggered the very next. See
Sidney H. Kennedy, M.D., A Review of
Antidepressant Therapy in Primary Care:
Current Practices and Future Directions,
Primary Care Companion for CNS Disorders, vol. 15(2), PCC.12r01420 (Apr. 11,
2013) (noting that major depressive disorder, the disease with which Hannah was
diagnosed, is ‘‘chronic and episodic’’ in nature). Indeed, Hannah was able to control
her symptoms for years while working at
ODNI. Ewing was consulted by Hannah’s
supervisors in connection with their decision to refer Hannah to EAP. J.A. 216.
The EAP memo, a copy of which Ewing
possessed, explicitly stated: ‘‘[Hannah] informed us that she was meeting with a
psychiatrist and counselor and taking medication for depression.’’ J.A. 413. And the
3.

Hannah’s supervisors testified that, because
she arrived later than other employees, they
were forced to reassign work that would have
fallen to her. There is evidence that the work
assignments were made around 9:00 or 9:30
a.m. J.A. 108–09. Had Hannah’s supervisors

memo implicitly made the connection between Hannah’s ‘‘struggling to get out of
bed in the morning’’ and recent upheavals
in her life that ‘‘negatively impacted some
of her physical coping mechanisms.’’ Id. In
fact, it noted that Hannah ‘‘appear[ed] to
gain more energy and become aware as
the day progress[ed] into early evening.’’
Id. On this evidence, a reasonable jury
could determine that Ewing was aware
that Hannah’s depression affected her ability to get to work by 10:00 a.m. and required medical intervention and that Ewing’s initial statement that he was unaware
of her condition was intended to cover up
the true reason for his desire not to hire
her: her disability.
In sum, because a reasonable jury could
conclude on this record that Hannah’s attendance issues were far from ‘‘blatant and
persistent misconduct,’’ Vannoy, 827 F.3d
at 305, and that ODNI’s proffered reason
for failing to hire Hannah for the Cyber
position was pretext for discrimination on
the basis of her disability, I would reverse
the district court’s grant of summary judgment on the discrimination claim.
B.
I also take issue with the Court’s conclusion that no question exists as to the reasonableness of the accommodations made
by ODNI. The reasonableness of an accommodation depends ‘‘on a good-faith effort to assess the employee’s needs and to
respond to them.’’ Feliberty v. Kemper
Corp., 98 F.3d 274, 280 (7th Cir. 1996).
Importantly, ‘‘a ‘reasonable accommodation’ is one that ‘effectively accommodates
the disabled employee’s limitations.’ ’’ Beltruly been concerned about being able to assign her work, one would expect the accommodation they offered to Hannah to have
required her to come into the office by 9:00.
No such requirement was ever made of her.

30a

356

916 FEDERAL REPORTER, 3d SERIES

lino v. Peters, 530 F.3d 543, 549 (7th Cir.
2008) (emphasis added) (citation omitted).
In identifying a reasonable accommodation, employers are required to engage in
an interactive process with the disabled
employee. See 29 C.F.R. § 1630.2(o)(3); Jacobs v. N.C. Administrative Office of the
Courts, 780 F.3d 562, 581 (4th Cir. 2015)
(‘‘The ADA imposes upon employers a
good-faith duty ‘to engage [with their employees] in an interactive process to identify a reasonable accommodation.’ ’’ (quoting
Wilson v. Dollar Gen. Corp., 717 F.3d 337,
346 (4th Cir. 2013))); Bellino, 530 F.3d at
548–50 (discussing ADA’s interactive-process requirement in the context of claim
brought under section 501 of the Rehabilitation Act). It is only if an employer provides a reasonable accommodation that the
employer’s failure to engage in an interactive process will not sustain a failure-toaccommodate claim. Jacobs, 780 F.3d at
581.
The majority finds that ODNI provided
Hannah with two accommodations: (1) the
March 19, 2015 agreement that Hannah
would report for work by 10:00 a.m., and
(2) the referral to EAP. Maj. Op. 337. I
submit that questions of fact exist with
respect to whether ODNI made a goodfaith effort to respond to Hannah’s needs
and whether either of these accommodations was effective, i.e., whether the accommodations were reasonable. And because a question of fact exists as to that
issue, I agree with Hannah that a question
also exists as to whether her employer
engaged in the required interactive process.
Hannah argues that her supervisors’ initial commitment to contact her if she did
not contact them or arrive by 11:00 a.m.
was the sine qua non of the first accommodation. But Hannah’s supervisors allowed that accommodation to remain in
place for only four working days before

unilaterally modifying it and, according to
Hannah, angrily pressuring her to propose
an alternative accommodation on the spot.
When Hannah did propose an alternative—four weeks of leave, as recommended
by both of her treating medical professionals—her supervisors denied the request
because they had already decided that
EAP counseling was more appropriate.
Speculating that they knew better than
both of Hannah’s medical professionals,
her supervisors believed that her medical
providers lacked ‘‘the expertise to provide’’
an opinion on ‘‘all of the items’’ they wanted to submit to the EAP. J.A. 95. And
while Hannah’s supervisors had suggested
that she take leave a few months earlier,
prior to any signs that Hannah’s disability
would affect her ability to get into work in
the morning, J.A. 173, they threatened to
terminate her employment if she did not
first attend EAP sessions after she requested medically recommended leave to
cope with her depression, J.A. 176. On this
evidence, the question of whether the first
accommodation and the decision to require
EAP counseling before granting medically
recommended leave were made in good
faith and were effective to address Hannah’s disability should be submitted to the
jury, as reasonable minds could conclude
that they were not.
Likewise, the reasonableness of ODNI’s
delay in granting Hannah leave should be
decided by a jury. Concededly, the short
duration of the delay (from April 9, 2015 to
May 4, 2015) undercuts Hannah’s argument of unreasonableness. See Terrell v.
USAir, 132 F.3d 621, 628 (11th Cir. 1998)
(finding that delay of three months in providing accommodation was reasonable).
However, Hannah’s attendance—and the
manifestation of her depression—was negatively impacted during the delay period;
ODNI purposefully delayed her leave
while she attended required EAP ses-

31a

HANNAH P. v. COATS
Cite as 916 F.3d 327 (4th Cir. 2019)

sions 4; ODNI would have terminated Hannah’s temporary position if she failed to
attend the EAP counseling 5; and Mark
Ewing intended to use the EAP sessions
to gather information regarding Hannah’s
suitability for future employment.6 Presented with this evidence, a reasonable
jury could conclude that the delay was the
result of ODNI’s bad faith. Feliberty, 98
F.3d at 280. Thus, I would reverse the
grant of summary judgment on Hannah’s
reasonable accommodation claim.
C.
I would also reverse summary judgment
on Hannah’s claim that she was subjected
to an unlawful medical examination as a
current employee.
Under the Rehabilitation Act, ‘‘[a] covered entity shall not require a medical
examination and shall not make inquiries
of an employee as to whether such employee is an individual with a disability or as to
the nature and severity of the disability,
unless such examination or inquiry is
shown to be job-related and consistent
with business necessity.’’ 42 U.S.C.
§ 12112(d)(4)(A); 29 U.S.C. § 791(f).
First, a clear dispute exists as to whether the EAP sessions constituted a required
medical examination under the Rehabilitation Act. Despite the voluntary nature of
EAP counseling highlighted by the majority, Maj. Op. 338, two of Hannah’s supervisors testified that the sessions were in fact
‘‘mandatory.’’ J.A. 448, 474. As Hannah
explained, she was told by her supervisor
4.

5.

See J.A. 422 (‘‘The recommendation of the
group was if Hannah were to ask for leave,
we should defer that decision until after meeting with EAP.’’); J.A. 176 (‘‘EAP was concerned that since I was a single woman if I
took leave I would be home by myself and
that could make my depression worse.’’).
See J.A. 176 (Hannah’s statement that she
was told she had ‘‘no choice’’ but to attend

357

that she had ‘‘no choice’’ in the matter and
that if she did not participate in the EAP
counseling, her temporary position with
ODNI would be declared ‘‘as excess’’ and
she ‘‘would be out of a job immediately.’’
J.A. 176.
The majority emphasizes the EAP counselor’s testimony that she did not conduct
a medical examination. Yet, the Court’s
opinion says nothing about Hannah’s testimony regarding the substance of her sessions with the counselor. According to
Hannah, she was asked for a family medical history, questioned about her medication and dosage, and even administered
a diagnostic tool used to assess depression.
J.A. 531–32, 534.
In light of this testimony, a reasonable
jury could conclude that the EAP sessions
were in fact required and that the diagnostic tool constituted a ‘‘procedure or test
that seeks information about an individual’s physical or mental impairments or
health.’’ E.E.O.C., Enforcement Guidance:
Disability–Related Inquiries and Medical
Examinations of Employees Under the
Americans with Disabilities Act (ADA)
(EEOC Notice 915.002) (July 27, 2000).
Likewise, a jury could determine that the
questions asked during the sessions
amounted to a ‘‘series of questions TTT
likely to elicit information about a disability’’ and the scope of Hannah’s disability.
Id.; Grenier v. Cyanamid Plastics, Inc., 70
F.3d 667, 677 (1st Cir. 1995). As Hannah’s
supervisors explained, the decision to refer
her to EAP was to determine whether her
the EAP sessions or her job would be terminated immediately).
6.

See J.A. 584–85 (Mark Ewing’s deposition
testimony that EAP referral ‘‘wasn’t initially
just about’’ Hannah’s temporary position but
also because Ewing ‘‘knew she was looking
for permanent employment’’).

32a

358

916 FEDERAL REPORTER, 3d SERIES

attendance was due to ‘‘a medical mental
health problem.’’ J.A. 422. Their decision
was predicated on a concern that granting
Hannah the doctor-recommended leave
could ‘‘make [her] depression worse’’ and
could even ‘‘be dangerous.’’ J.A. 176, 422–
23. After meeting with Hannah, the EAP
counselor even suggested that Hannah
could have bipolar disorder. J.A. 601–02. If
faced with this evidence, a reasonable jury
could easily find that the EAP sessions
were in fact required medical examinations
or disability-related inquiries.
With respect to the second prong of our
inquiry—whether the EAP sessions were
job-related and consistent with business
necessity—questions of fact also preclude
summary judgment. ‘‘[W]hether a mental
examination was ‘job-related and consistent with business necessity’ is an objective inquiry.’’ Pence v. Tenneco Auto. Operating Co., Inc., 169 F. App’x 808, 812
(4th Cir. 2006) (citing Tice v. Centre Area
Transp. Auth., 247 F.3d 506, 518 (3d Cir.
2001)). It is the employer who bears the
burden of proving this prong. Kroll v.
White Lake Ambulance Auth., 763 F.3d
619, 623 (6th Cir. 2014). ‘‘A business necessity must be based on more than ‘mere
expediency,’ and will be found to exist
where the employer can ‘identify legitimate, non-discriminatory reasons to doubt
the employee’s capacity to perform his or
her duties.’ ’’ Coursey v. Univ. of Md. E.
Shore, 577 F. App’x 167, 173 (4th Cir.
2014) (citing Conroy v. N.Y. State Dep’t of
Corr. Servs., 333 F.3d 88, 97–98 (2d Cir.
2003); Thomas v. Corwin, 483 F.3d 516,
527 (8th Cir. 2007)). A business necessity
may also exist if a medical examination is
necessary to determine ‘‘whether an employee’s absence or request for an absence
is due to legitimate medical reasons, when
the employer has reason to suspect abuse
of an attendance policy.’’ Thomas, 483 F.3d
at 527 (citing Conroy, 333 F.3d at 98).

I would find that ODNI is not entitled to
summary judgment because a reasonable
jury could conclude that the employer
lacked a ‘‘reasonable belief based on objective evidence that [Hannah] was unable to
perform the essential functions of her job
or that she posed a threat to herself or to
others based on a medical condition.’’
Wright v. Ill. Dep’t of Children and Family Servs., 798 F.3d 513, 524 (7th Cir. 2015);
see also Kroll, 763 F.3d at 623 (‘‘[T]he
individual who decides to require a medical
examination must have a reasonable belief
based on objective evidence that the employee’s behavior threatens a vital function
of the business.’’ (citing Pence, 169 F.
App’x at 812) (other citation omitted)). It is
undisputed that Hannah’s supervisors, as
well as Mark Ewing, were involved in the
decision to refer Hannah to the EAP.
Therefore, the question is whether those
supervisors had objective evidence that
Hannah was unable to perform an essential function of her job. For the period
including Hannah’s ‘‘egregious’’ attendance
issues, she received an overall performance rating of 4.53 out of 5.00—a rating of
‘‘Excellent.’’ J.A. 406–10. Yet the majority
concludes that her poor attendance precluded her from performing an essential
function of her job.
I submit that this conclusion cannot be
reached as a matter of law on this record,
a record that seriously calls into question
ODNI’s sincerity in its assertion that Hannah was unable to perform an essential
function of her job. For the entirety of
Hannah’s time as the disclosures coordinator on the Snowden project, she started
work and left work later than other ODNI
employees. J.A. 25, 494. Although she
came in later, she got the job done, and
she did it ‘‘impeccabl[y].’’ J.A. 412. She was
able to manage her depression and worked
long hours in a stressful environment while
excelling. J.A. 19–20, 412. Her supervisors
had no qualm with her attendance, and

33a

359

HANNAH P. v. COATS
Cite as 916 F.3d 327 (4th Cir. 2019)

aside from the maxi flex schedule, there
was no formal work-hours requirement in
place. J.A. 492–94, 518. When that project
winded down in late 2014 and early 2015,
Hannah’s supervisors did not institute
‘‘core’’ hours or otherwise formally remove
Hannah from the maxi flex schedule. J.A.
461, 518. In light of Hannah’s ODNI-sanctioned history of beginning her work day
later than others (a practice which simply
continued into April 2015), the apparent
lack of any formal policy requiring that
her schedule be otherwise, and her consistent ‘‘excellent’’ performance reviews,
there is at the very least a question of fact
regarding ODNI’s ‘‘reasonable belief based
on objective evidence that [Hannah] was
unable to perform the essential functions
of her job.’’ Wright, 798 F.3d at 524.
This is not to say that the essential
functions of Hannah’s job did not include
regular attendance. See Tyndall v. Nat’l
Educ. Ctrs., Inc. of Cal., 31 F.3d 209, 213
(4th Cir. 1994). However, as discussed
above, a jury could reasonably conclude
that ODNI had no ‘‘reason to suspect
abuse of an attendance policy,’’ Thomas,
483 F.3d at 527 (citation omitted), when no
such policy formally existed and when
Hannah had been allowed for over a year
to begin work later than other department
employees. And although Hannah requested leave, her supervisors had decided before Hannah’s request that they would defer a decision on any leave request until
after the EAP referral because they expected a ‘‘quick answer’’ from EAP. J.A.
95. But ‘‘mere expediency’’ is insufficient
to establish business necessity. Coursey,
577 F. App’x at 173.
In light of these considerations, I would
submit the issue of whether the EAP sessions were job-related and consistent with
business necessity to the jury for resolution.

D.
Finally, I would reverse the district
court’s grant of summary judgment on
Hannah’s FMLA retaliation claim. ODNI
argues that Hannah cannot prove this
claim because her non-selection for the
Cyber position was due to ‘‘her significant
attendance and reporting problems prior
to her first leave request.’’ Resp. Br. 48.
For largely the same reasons that I would
reverse with respect to Hannah’s discrimination-in-hiring claim, I would find that
there is sufficient evidence in the record to
create a material issue of fact for the jury
to decide on this claim.
Hannah suffered from a disability, one
that could effectively be accommodated
with leave. Unfortunately, her leave was
granted only after she struggled to manage her disability—a struggle which a reasonable jury could readily conclude did not
violate any attendance policy. Despite
Hannah’s rebound upon her return, ODNI
used her late arrivals during the time for
which she requested but was denied leave
as grounds for denying her a permanent
position, a position for which it is undisputed that she was exceptionally qualified.
J.A. 623–25, 635–36. In essence, ODNI
assigned Hannah to a high-stress position
after which her depression worsened; delayed her request for FMLA-qualifying
leave to accommodate her depression,
thereby intensifying her symptoms; then
refused to hire her for a permanent role
when she returned from leave. Because of
this, and for the reasons I articulate above,
a jury could reasonably conclude that
ODNI’s rejection of Hannah’s application
for permanent employment was based on
the exercise of her FMLA rights in requesting and taking a qualifying leave of
absence to accommodate her disability.

,

USCA4 Appeal: 17-1943

Doc: 44

Filed: 06/25/2019
34a

Pg: 1 of 2

FILED: June 25, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
___________________
No. 17-1943
(1:16-cv-01030-CMH-IDD)
___________________
HANNAH P.
Plaintiff - Appellant

v.
DANIEL COATS, Director of the Office of The Director of National Intelligence
McLean, VA
Defendant - Appellee
and
MARK EWING, in his personal capacity McLean, VA
Defendant
___________________
ORDER
___________________
The Court denies the petition for rehearing en banc.
A requested poll of the Court failed to produce a majority of judges in regular
active service and not disqualified who voted in favor of rehearing en banc. Chief
Judge Gregory and Judge King voted to grant rehearing en banc. Judges Wilkinson,

USCA4 Appeal: 17-1943

Doc: 44

Filed: 06/25/2019
35a

Pg: 2 of 2

Niemeyer, Motz, Agee, Keenan, Wynn, Diaz, Floyd, Thacker, Harris, Richardson,
Quattlebaum, and Rushing voted to deny rehearing en banc.
Entered at the direction of Judge Thacker.
For the Court
/s/ Patricia S. Connor, Clerk

